<html>
<title> - IRAQ: DEMOCRACY OR CIVIL WAR?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                     IRAQ: DEMOCRACY OR CIVIL WAR?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2006

                               __________

                           Serial No. 109-250

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
39-536 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            R. Nicholas Palarino, Staff Director and Counsel
                Kaleb Redden, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 2006...............................     1
Statement of:
    Ajami, Dr. Fouad, Director of Middle East Studies, School of 
      Advanced International Studies, Johns Hopkins University; 
      Dr. Jim Fearon, Gabelle professor in the School of 
      Humanities and Social Science, and professor of political 
      science, Stanford University; Ambassador Peter Galbraith, 
      senior diplomatic fellow, Center for Arms Control and 
      Nuclear Non-Proliferation, former U.S. Ambassador to 
      Croatia....................................................    43
        Ajami, Dr. Fouad.........................................    43
        Fearon, Dr. Jim..........................................    54
        Galbraith, Ambassador Peter..............................    69
Letters, statements, etc., submitted for the record by:
    Ajami, Dr. Fouad, Director of Middle East Studies, School of 
      Advanced International Studies, Johns Hopkins University, 
      prepared statement of......................................    46
    Fearon, Dr. Jim, Gabelle professor in the School of 
      Humanities and Social Science, and professor of political 
      science, Stanford University, prepared statement of........    57
    Galbraith, Ambassador Peter, senior diplomatic fellow, Center 
      for Arms Control and Nuclear Non-Proliferation, former U.S. 
      Ambassador to Croatia, prepared statement of...............    72
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    12
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of California, prepared statement of.............     4


                     IRAQ: DEMOCRACY OR CIVIL WAR?

                              ----------                              


                       FRIDAY, SEPTEMBER 15, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) Presiding.
    Present: Representatives Shays, Kucinich, and Van Hollen.
    Staff present: J. Vincent Chase, chief investigator; R. 
Nicholas Palarino, Ph.D., staff director; Kaleb Redden and Alex 
Manning, professional staff members; Robert A. Briggs, analyst; 
Robert Kelley, chief counsel; Michael Girbov, graduate 
assistant; Andrew Su, minority professional staff member; and 
Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Iraq: Democracy or Civil War? 
What are the Consequences of Leaving Iraq,'' is called back to 
order. This is an extremely important topic, as I think we all 
can agree, and thus we want the record to be complete.
    Today's hearing is a continuation of both Monday and 
Wednesday's hearing, but a continuation of Wednesday's hearing. 
At the end of today we will adjourn. At the start of each 
reconvening session, Members have the opportunity to make 
opening statements and I will begin with my statement.
    Today we convene for the final day of our 3-day hearing, 
``Iraq: Democracy or Civil War?'' examining security force 
levels, prospects for national reconciliation and the 
consequence of leaving Iraq immediately, later but still 
prematurely, or when Iraqis are capable of taking over for 
Coalition forces.
    The conflict in Iraq finds United States and Coalition 
forces up against increasing insurgent sectarian and terrorist 
violence. Thomas Friedman of the New York Times, who has 
supported the U.S.' objective to foster progressive democracy 
in the Middle East, bluntly stated, ``it is now obvious that we 
are not midwifing democracy in Iraq, we are baby-sitting a 
civil war.''
    While some may take issue with Mr. Friedman's choice of 
words, the broad contours of his point are clear: The violence 
in Iraq continues, if not increases; the new Iraqi leadership 
has not yet shown the political will to confront it, and 
efforts to promote peace and democracy are stalled.
    Our witnesses this past Monday came to different 
conclusions about security in Iraq, but one thing was clear 
from their testimony. Our current baseline for overall security 
forces is inadequate. We do not have enough Coalition forces in 
Iraq.
    In addition, it is clear to me, based on my 14 visits to 
Iraq and all our hearings, the 325,500 projected Iraqi security 
force level to be reached in December of this year will be 
inadequate and not allow us to bring most of our troops home.
    At our second session this past Wednesday, officials from 
the Department of State and the U.S. Agency for International 
Development and a panel of distinguished Iraqis testified on 
the prospects, timing, and conditions for achieving national 
reconciliation and a permanent constitution. Ambassador David 
Satterfield, the senior advisor on Iraq to the Secretary of 
State, told us that quashing military violence is a priority--
excuse me, told us that quashing militia violence is a 
priority, but that all of the tough decisions currently facing 
Iraqis, standing down militias, sharing the oil wealth, 
federalism and the rollback of debaathification are parts of 
the solution. He concluded that a grand bargain incorporating 
all of the parts would be required to achieve lasting 
reconciliation.
    Our second panel on Wednesday comprised of Dr. Hajim Al-
Hasani, former Speaker of the Iraqi Parliament and currently a 
Sunni member of Parliament; Mr. Karim Al-Musawi, Washington 
representative of the Supreme Council for the Islamic 
Revolution in Iraq; and Mr. Qubad Talabany, Washington 
representative of the Kurdish Region Government and son of 
Iraqi's President Jalal Talabany, identified what they saw as 
key mistakes that have led to sectarian violence in Iraq.
    While they didn't agree on all of them, all of these were 
mentioned: permitting the looting that followed the U.S. 
invasion; allowing Iraqis to divide and identify by distinct 
groups; inadequate vetting of new volunteers for new security 
forces, especially in the national police, leading to 
corruption within the ranks; dissolving Iraqi security forces 
and not subsequently reconstituting them more quickly; creating 
a political vacuum by not having a provisional government 
prepared to take over when Hussein's government dissolved; and 
devoting insufficient attention to economic development.
    We begin today by continuing the national reconciliation 
discussion with our second panel from Wednesday. Following the 
conclusion of this panel, we will hear testimony from today's 
panel discussing the consequence of leaving Iraq immediately, 
later but still prematurely, or when Iraqis are capable of 
taking over for Coalition forces.
    For all the talk of U.S. withdrawal, serious consideration 
of the consequences of leaving Iraq has received relatively 
little attention. The administration has made clear its view 
that the consequences of leaving Iraq prematurely would be 
disastrous. It believes removing U.S. forces before Iraqis can 
defend themselves would abandon the Iraqi people to an 
environment of death and uncertainty, destabilize the Middle 
East, embolden terrorists around the globe, and leave the world 
a more dangerous place for generations to come.
    I believe leaving Iraq prematurely would result in a full-
scale civil war, Islamic terrorists winning a huge victory, and 
Iran being the dominant power where two-thirds of the world's 
energy resides. That is my opinion. And this is why we are 
having our hearing today: What will be the consequences of 
leaving Iraq whenever we leave it?
    I struggle with the fact that since we invaded Iraq and 
dissolved their entire security force, I also believe it would 
be immoral to leave Iraq before we replace these security 
forces. Again, I also struggle with the fact that President 
Bush said: As the Iraqis stand up, we will stand down.
    But the fact is, this has not happened. As of August 30, 
2006 there were 294,000 trained and equipped Iraqi security 
forces, and yet no Coalition forces have stepped down.
    Debate will become more pronounced in the coming weeks and 
months over when the United States can withdraw forces in Iraq. 
Engaging in serious debate is healthy, it is exactly the sort 
of dialog our country needs to be having about Iraq right now, 
but this debate should be informed by serious consideration of 
the impact of our leaving Iraq, not by partisan politics.
    We will hear testimony on this topic today from Dr. Fouad 
Ajami, Director of Middle East Studies at Johns Hopkins 
University's School of Advanced International Studies; Dr. 
James Fearon, Professor of Political Science at Stanford 
University, an expert on ethic conflict and civil war; and 
Ambassador Peter Galbraith, Senior Diplomatic Fellow at the 
Center for Arms Control and Nonproliferation.
    We thank all our witnesses for sharing their perspectives 
with us today and hope that this hearing will help illuminate 
the consequences of the paths our Nation may choose in Iraq. 
Iraq's future and our own hangs in the balance. Thank you.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T9536.001
    
    [GRAPHIC] [TIFF OMITTED] T9536.002
    
    [GRAPHIC] [TIFF OMITTED] T9536.003
    
    [GRAPHIC] [TIFF OMITTED] T9536.004
    
    Mr. Shays. At this time I would recognize our distinguished 
ranking member, thank him for staying along with our other two 
colleagues, and Mr. Kucinich staying for this hearing.
    Mr. Kucinich, you have the floor.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Chairman, this committee and this House, I am hopeful, 
appreciates the effort that you have made, Mr. Chairman, to 
create a forum where we could have this discussion. And while 
the Chair and I have come to different conclusions based on the 
facts that we are discussing today, I want you to know that I 
have the utmost confidence in your integrity and in your 
commitment to this country.
    Today's hearing seeks to explore the question, what are the 
consequences of leaving Iraq? I think a better question to ask 
is, what are the consequences of our staying in Iraq? Despite 
the rosy assessments of the administration, the facts on the 
ground in Iraq are dismal. Iraq is mired in an increasingly 
bloody civil war, with U.S. troops and innocent Iraqis caught 
in the crossfire. The civilian death toll continues to rise at 
a staggering and gruesome pace. Attacks on our troops have not 
subsided.
    In 3\1/2\ years, $380 billion later, most Iraqis still 
suffer daily, without the most basic of needs such as 
electricity, clean water, sewage or working hospitals. Every 
day as many as a 120, sometimes more, Iraqis die at the hands 
of execution-style death squads, kidnappings, murders, IEDs and 
sectarian violence.
    Al Qaeda, which prior to the U.S. invasion had no 
influence, has now grown in influence and numbers of recruits 
in Iraq, and has become a breeding and training ground for 
terrorists who want to kill Americans.
    Our own military intelligence officials have given up on 
Anbar Province, and 3 years after the invasion, our occupation 
is not even able to secure the capital of Baghdad. The civil 
war in Iraq cannot and will not be won by the administration's 
military occupation of Iraq. Repeatedly, our own generals have 
told us that the war in Iraq cannot be won by military force 
alone. There are currently just over 130,000 U.S. troops in 
Iraq, yet within the government we installed--the Ministry of 
Interior, according to a published report, is employing death-
squad tactics. Hundreds of Iraqi bodies are showing up with 
signs of torture and execution, with published reports linking 
this to the Ministry of Interior.
    How is it possible that our military presence is not 
sufficient to deter Iraqi Government-sponsored terror? 
Shouldn't this subcommittee investigate that question?
    As I said, Mr. Chairman, the question today should not be 
the consequences of leaving Iraq, but the consequences of 
staying. The consequences of staying, as the President has 
already stated, will be the case at least until the end of his 
Presidency. This will mean we will not only compound past 
failures but we will make our Nation less safe.
    Our continued occupation will ensure most of our bravest 
and finest will come home in flag-draped coffins. Our continued 
occupation will ensure that more of our young soldiers will 
return injured and maimed. Our continued occupation will ensure 
the bloody civil war will continue. Our continued occupation 
will ensure the death squads continue. Our continued occupation 
will ensure taxpayer dollars will be subject to waste, fraud 
and abuse at the hands of Halliburton and other defense 
contractors. And our continued occupation will ensure al Qaeda 
continues to grow.
    Our Bible says, ``That which is crooked cannot be made 
straight.'' I think that those words would characterize our 
occupation presence in Iraq, because the administration 
manipulated intelligence, deliberately misled the public and 
Congress, and issued a false campaign of fear to sell this 
phony policy.
    The war in Iraq has been a grave and tragic mistake. It has 
cost us blood and treasure. It has damaged our reputation in 
the world, it has squandered the world's goodwill after 9/11, 
and it has been a tremendous distraction from our efforts to 
challenge terrorism worldwide and to seek justice of those 
responsible for 9/11.
    We have lost over 2,671 U.S. soldiers, tens of thousands 
more have been injured, many of them severely maimed; 100,000 
to 200,000 innocent Iraqis have died as a result of the U.S. 
invasion. We have squandered over $380 billion of taxpayers' 
money, all of it in deficit spending. Over half of this deficit 
spending is derived from foreign sources. Think about it: We 
have to borrow from Beijing to occupy Baghdad.
    The consequences of staying are that our troops remain 
bogged down in an unwinnable war, with no exit strategy, a 
rising death toll, and a country growing bloody and deadly as 
we create more terrorists, while politicians in Washington 
continue to ignore the advice of generals and pursue 
ideological and political agendas.
    Stay the course? I believe our colleague and my friend 
Congressman Duncan said it best the other day, and I am 
paraphrasing. He said, When you are headed down a highway in 
the wrong direction, you take the exit ramp. We are headed in 
the wrong direction in Iraq.
    Over 3 years after the administration's misguided war of 
choice, failed occupation, and disastrous reconstruction 
effort, Iraq is our quagmire. The consequences of staying are 
far more dangerous than the consequence of taking the exit ramp 
from Iraq.
    I believe it is time we end this grave misadventure in Iraq 
and bring our troops home with the honor and dignity they 
deserve.
    Mr. Chairman, I just handed you a letter requesting the 
committee examine the role of our intelligence apparatus in the 
current march to armed conflict with Iran. History appears to 
be repeating itself. The administration is using the same phony 
tactics to try to launch the next war as it did 4 years ago to 
mislead us into the current quagmire.
    According to the Washington Post of September 14, 2006, 
article entitled ``U.N. Inspectors Dispute Iran Report by House 
Panel,'' the Director of National Intelligence, DNI, conducted 
a pre-publication review of the House Intelligence Committee 
staff report on Iran which has come under scrutiny for making 
false, misleading, and unsubstantiated assertions about Iran's 
nuclear program. In the article a spokesperson for the DNI 
confirmed the agency did review the report prior to its 
publication, yet the final committee staff report, ``included 
at least a dozen claims that were either demonstrably wrong or 
impossible to substantiate,'' including the gross exaggeration 
that the level of uranium enriched by nuclear plants has now 
reached, ``weapons grade,'' levels of 90 percent, when in 
reality the correct enrichment level found by the International 
Atomic Energy Agency was 3.6 percent.
    This is a letter from the IAEA, Director of External 
Relations and Policy Coordination, Mr. Vilmos Cserveny to 
Chairman Hoekstra, September 12, 2006.
    The publication of false, misleading and unsubstantiated 
statements by the House committee is regrettable, but the role 
of the DNI raises important questions. Was the text of the 
report given to DNI for review identical to the text later 
released to the public by the committee? Did the DNI recognize 
those claims made in the report that were wrong or impossible 
to substantiate at the time the DNI conducted its pre-
publication review? During its review did DNI also note the 
same false, misleading, and unsubstantiated statements as those 
deemed by the IAEA in its letter to the committee to be wrong 
or impossible to substantiate? In its response to the committee 
did DNI state the inaccuracies it found and seek correction or 
clarification of those parts of the prepublication report? No. 
5, did the DNI approve the report in spite of false and 
exaggerated claims made in the report?
    In conclusion, Mr. Chairman, these are troubling signs 
which this subcommittee has attempted to investigate, and the 
administration is heading the United States toward a military 
conflict with Iran.
    In June our subcommittee held a classified Members' 
briefing, at my request, to investigate independent reports 
published in The New Yorker magazine and The Guardian that U.S. 
military personnel have been or are already deployed inside and 
around Iran, gathering intelligence and targeting information; 
and reports published in Newsweek, ABC News, and GQ magazine 
that the United States has been planning and is now recruiting 
members of MEK to conduct lethal operations and destabilizing 
operations inside of Iran. Unfortunately, despite your efforts, 
neither the Department of State nor the Department of Defense 
chose to appear for the classified briefing. Three months later 
this subcommittee has been unable to question State or the 
Department of Defense directly on these reports.
    However, this subcommittee was briefed by the Office of the 
Director of National Intelligence, and I believe the 
subcommittee should use its oversight authority to compare the 
statements and information provided the Members about Iran's 
nuclear program at the briefing with information provided to 
the House Intelligence Committee for their report.
    These are precisely the sort of questions this subcommittee 
is designed to pursue. The latest report indicating DNI 
passivity or complicity in embellishing the danger of Iranian 
nuclear programs should be aggressively investigated by our 
subcommittee immediately. We cannot and must not permit this 
administration to build a case for war against Iran on 
falsehoods and pretext, as they did with Iraq.
    We have seen similar patterns with the twisting of 
intelligence to create a war against Iraq. We must not let this 
happen again.
    I ask this subcommittee to invite the DNI to appear 
immediately before the committee. It's imperative our questions 
be answered in an expeditious manner. Once again, Mr. Chairman, 
I want to thank you for holding these series of hearings and I 
look forward to hearing from the witnesses.
    Mr. Shays. I thank the gentlemen. Let me just comment on 
the letter, and I thank him for showing us the letter. What I'm 
going to suggest is that we first have a briefing with the 
Intelligence Committee, and we'll do that next week, and then 
you and I can decide where we go from there.
    In reference to the meeting you described where the Defense 
Department did not show up, the State Department did not show 
up, but the DNI did, we had a classified briefing with the DNI. 
The State Department provided us classified materials. The 
Defense Department said they would give us a letter stating why 
they did not come and so on, and why they do not come, and we 
have yet to get that letter.
    What we'll first do is, this week we'll schedule a meeting 
to go over that information, try to do it toward the beginning 
of the week so we can decide how to followup.
    Mr. Kucinich. I appreciate your help on this, Mr. Chairman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T9536.005

[GRAPHIC] [TIFF OMITTED] T9536.006

[GRAPHIC] [TIFF OMITTED] T9536.007

[GRAPHIC] [TIFF OMITTED] T9536.008

[GRAPHIC] [TIFF OMITTED] T9536.009

    Mr. Shays. Mr. Lynch, thank you for being here.
    If I could interrupt and say to our witnesses, this is how 
we do things in Congress. We make statements before the start 
of every hearing. And we hope that it has some value to our 
witnesses as well, so that they can in their questions respond 
to what concerns us. And I do think there is value in all three 
of you knowing that there is very real division in our own 
country about how we deal with Iraq, and having your input is 
helpful.
    I want to thank the gentlemen who are here to be able to 
interact with the Iraqis, who can share their feelings, so I'm 
really grateful you're here.
    Mr. Lynch, sorry for interrupting you. You can have as much 
time as you need.
    Mr. Lynch. Thank you, Mr. Chairman. I would like to thank 
you for your willingness to hold these hearings and also thank 
Ranking Member Kucinich for his work as well. I want to welcome 
back Mr. Talabany, Dr. Al-Hasani and Mr. AlMusawi and thank 
them and all the panelists here today to help the committee 
with its work.
    Yesterday's media reports detailing the Iraqi police's 
discovery of nearly 100 death squad victims in Baghdad over 
just a 2-day span evidence the new nature of the conflict in 
Iraq. What began as a direct military operation to oust Saddam 
Hussein from military power in the interest of national and 
global security, and then later became a war against a durable 
and underestimated terrorist insurgency, is now primarily 
defined by heightened sectarian violence and the early evidence 
of a full-blown civil war.
    According to the Department of Defense's most recent 
quarterly report to Congress on measuring stability and 
security in Iraq, I'll quote from it here:
    ``rising sectarian strife defines the emerging nature of 
violence in mid-2006 in Iraq as evidenced by an increasing 
number of execution-style killings, kidnappings and attacks on 
civilians, and a 51 percent increase in Iraqi casualties over 
the previous reporting period.''
    Now, as a result, our brave men and women in uniform who 
are already shouldering a massive effort against the insurgency 
are now being asked--and this has been the topic of our 
hearings here, the issue of reconciliation between Sunni and 
Shia in Iraq. That has become the defining conflict in Iraq, 
and yet we have committed our sons and daughters and enormous 
resources to that effort.
    I don't think that there would have been many people in 
this body if, back in 2002, we were asked to commit our sons 
and daughters and enormous resources of this country for the 
purpose of reconciling the differences between Shia and Sunni. 
It would have been overreaching on our part. I don't think 
there was any appetite for that purpose. But that is where we 
are right now in Iraq.
    Even now, U.S. force levels in Baghdad have had to be 
increased dramatically because of sectarian violence, with an 
additional 7,000 troops recently sent to the Iraqi capital.
    Mr. Chairman, simply put, given the dramatic change in the 
nature of the conflict in Iraq, the administration's 
longstanding ``stay the course'' strategy is not working given 
that our course has significantly diverged since March 2003. We 
have failed to empower the newly elected Iraqi Government and 
we have now overloaded our own Armed Forces with primary 
responsibility over all government services, from training 
Iraqi police officers to repairing public utilities and to 
engendering national reconciliation between the Shia and Sunni 
sects, the differences between which date back to 632 after the 
death of the Prophet Mohammed. That is not a realistic goal in 
my mind for U.S. troops.
    I have been to Iraq five times and I have had dozens of 
meetings with your colleagues in the Iraqi Parliament, and also 
with General George Casey as well as President Talabany--your 
dad, Mr. Talabany, a good man--and members of the Iraqi Council 
of Representatives and other United States and Iraqi officials. 
I strongly believe that our Iraq strategy could be best served 
by implementing a transparent and fully accountable mechanism 
by which to transition the country's government operations to 
the elected Iraqi civilian government, thereby facilitating the 
safe and prompt return of our military forces and decreasing 
the detrimental consequences that our departure could have on 
Iraq.
    To this end, I have actually filed and drafted legislation, 
the Iraq Transition Act, to establish a national bipartisan 
commission to guide and accomplish Iraq's transition to 
civilian control and also to report that progress when it 
happens to the Congress.
    This legislation is rooted in a successful historical 
precedent; namely, the 1944 Filipino Rehabilitation Act. At the 
end of World War II, the latter part of World War II, this 
country found itself in the possession of the Philippine 
Islands, and by default, because we had just driven out the 
Japanese, we found that the military--the U.S. military was in 
control of every aspect of the government in the Philippines. 
And what we did then I think was instructive.
    President Roosevelt established a national commission made 
up of representatives of the White House, the House and the 
Senate for the sole and singular purpose of transferring the 
military's control of that country to its civilian population.
    Now, there are obviously great differences between the 
Philippines in 1944 and Iraq today, but the job that needs to 
be done is the same. The only way we can get our troops out of 
there in a deliberate and orderly and safe fashion is to 
transfer significantly and substantially the government 
operations from our military over to your civilian government. 
That has to happen. That is a necessary precondition to our 
withdrawal, and we seek it now.
    There has been much talk about the Iraqis stepping up. 
You're here now. I want you to take this message back: We need 
to see you step up; we need to see you take responsibility.
    I spoke with President Talabany back in April in the 
convention center during the first session of the Iraqi--the 
new Iraqi Council. He said--he admitted the overwhelming 
military presence of the United States in our country is not 
good, it's not good for our future, not good for the 
independence of Iraq. He said we need you to leave, but not 
just now.
    The patience of the American people is growing thin and the 
nature of the conflict is not something that we can solve. It's 
a political solution that needs to be accomplished by Sunni and 
Shia. Your people will lose faith in the elected government 
that they've chosen.
    Mr. Chairman, I am thankful that we have these panelists, 
not only this group but the ones to follow. Mr. Chairman, I 
welcome our panelists' thoughts on these suggestions and I look 
forward to their perspectives on the current political and 
security environment in Iraq. And I yield back the balance of 
my time. Thank you.
    Mr. Shays. I thank the gentlemen. I just want to say to our 
panelists, we are so grateful you're here and we have such 
respect for all three of you. So this dialog is so that we have 
an honest exchange with each other. We know that your presence 
here is very helpful, and I just want to say how grateful we 
are that you are in fact here. You will have the opportunity to 
tell us what you think in response to what you're hearing. 
Thank you.
    The gentleman from Maryland.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
holding this hearing. This is the third hearing we've had this 
week. The first hearing was on Monday, September 11th, and 
given the fact this is the week where we are remembering the 
attacks that took place in the United States September 11, 
2001, I do think it is important that we go back and remember 
that there was absolutely no connection between the attacks 
that took place on the United States September 11, 2001 and 
Iraq. There was no connection between Saddam Hussein and the 
attacks that took place on the United States on September 11, 
2001.
    So as we passed that solemn occasion last Monday, we need 
to take a look at how we're doing with respect to our efforts 
against those who perpetrated those attacks and, unfortunately, 
despite the fact that the President of the United States in May 
2003, aboard the aircraft carrier U.S.S. Lincoln proclaimed 
behind a banner that read ``Mission Accomplished,'' that we had 
met our objectives, we have not yet begun to meet our 
objectives with respect to those who attacked this country on 
September 11, 2001.
    The fact of the matter is Osama bin Laden remains alive and 
well somewhere along the Afghan-Pakistan border. Al Qaeda is 
still active and plotting attacks against the United States and 
others. In fact, what we we've seen is a resurgence of Taliban 
activity in Afghanistan, especially in southern Afghanistan, 
which is the heartland of the Taliban. They have seen--we have 
seen increased attacks. General Maples, the head of the DIA, 
testified earlier before the Senate with respect to the 
increased threat posed by the Taliban. Despite the increase, 
the United States has actually reduced the number of American 
forces in southern Afghanistan.
    We've also seen recently the Pakistani Government has 
essentially entered into a nonaggression pact with those in the 
northwest frontier area, in the Waziristan area, essentially 
saying the Pakistani forces won't come after the Taliban.
    We've learned recently that we've seen a record high opium 
crop, historical high opium crop in Afghanistan. Things are not 
going as well as they should in Afghanistan and the United 
States has not kept its eye on the ball and we have not 
completed the mission in Afghanistan.
    This country was united, absolutely united in taking 
forceful action to get Osama bin Laden and al Qaeda. The 
international community was behind us. NATO, the United 
Nations, unanimously passed a resolution condemning the attacks 
on the United States and joining us in the fight against 
terror. And yet today, just a little more than 5 years after 
those attacks, we have not completed that mission. Osama bin 
Laden is out there, al Qaeda is still plotting, and we are now 
having a hearing dealing with Iraq, which had nothing to do 
with September 11th. And what happened was the United States 
took its eye off the ball and we decided to take military 
action in Iraq. And we know what the consequences have been.
    There were no weapons of mass destruction. There was, as I 
said, no connection between al Qaeda and Saddam Hussein. We 
knew that before, but now we have a bipartisan report out of 
the Senate Select Committee on Intelligence confirming that. 
And I would just like to read, Mr. Chairman, Walter Pincus has 
a piece in the Washington Post today, the first paragraph which 
reads: ``the CIA learned in late September 2002 from a high 
member of Saddam Hussein's inner circle that Iraq had no past 
or present contact with Osama bin Laden and that the Iraqi 
leader considered bin Laden an enemy of the Baghdad regime.'' 
That's according to that report.
    I think anyone who followed Iraq and Afghanistan understood 
that. Saddam Hussein was the ideological opposite of Osama bin 
Laden. The consequence of our going into Iraq has, in fact, 
been to take the lid off the Pandora's box and unleash many 
forces that the United States has not been able to control and 
cannot control. And yet we constantly hear from the 
administration, despite the difficult situation in Iraq, trust 
us, stay the course.
    These are the same people that told us last year that the 
insurgency was in, ``its last throes.'' In June of last year 
Vice President Cheney said on the Larry King show that the 
insurgency was in its last throes. And yet just last week, we 
had a Pentagon report that came out--a report that was 
required, I might add, by the Congress--that said that in fact 
the insurgency remains, ``potent and viable.'' Not only that, 
but the insurgency is no longer the worst of our problems. But 
the worst of our problems now is a civil war, emerging civil 
war, current civil war, call it what you want, thousands of 
people are being killed in Iraq in sectarian violence.
    And yet I think back to last November. President Bush 
again, this time at the Naval Academy, big speech, big 
placard--this administration loves these placards--said, ``Plan 
for Victory.'' And despite that, 6 months later we have a 
Pentagon report saying things are even worse today than they 
were back then, and yet these same people who say mission 
accomplished, plan for victory, that say trust us, they say 
let's stay the course. But stay the course is a slogan, it's 
not a strategy. More of the same. More of the same. Let's open 
up our newspapers and ask if we want more of the same, the same 
killing that's going on.
    So we really need a national conversation. The President 
says he wants a national conversation. He says that 1 day, and 
then he goes out and the Vice President goes out and they 
finger-point at anyone who raises questions about their 
approach, engage in name calling. The President says he wants a 
national conversation, but he comes up here to Congress this 
week, he only talks to the Republican Caucus. So let's have a 
serious dialog about how we're going to address these issues 
and move forward in Iraq.
    I'm very pleased, Mr. Chairman, you have these panelists 
here. We're probably not going to have another chance to say 
another word before the next panel is introduced, so I want to 
welcome them and give a special welcome to my good friend and 
former colleague, Peter Galbraith, Ambassador Galbraith who is 
here. And during this past week's hearing I have asked many of 
the panelists to come before us to comment on the book that 
Ambassador Galbraith wrote, The End of Iraq.
    And what I would say is whether people agree or disagree 
with the particular prescription he puts forward, or they agree 
or disagree with the proposal Senator Biden has put forward, or 
others, at least these people are putting forward ideas on how 
to deal with the terrible political situation and challenges in 
Iraq. They're thinking about solutions, not just coming up with 
slogans like stay the course, without anything behind them, 
when we know things have not been getting better despite what 
we've heard.
    I thank you again, Mr. Chairman, and I'm looking forward to 
the testimony from the Representatives at the dais now. Thank 
you for coming back.
    Mr. Shays. I thank the gentleman very much. Again, I want 
to thank the panelists for agreeing to come back. I think, 
frankly, it's very beneficial since you have more Members to 
address and have an interaction with, so that is going to be 
very helpful.
    I would just say to our panelists--first let me introduce 
them officially. Dr. Hajim Al-Hasani, member of Parliament and 
former Speaker, Iraqi Parliament. Sometimes, Dr. Al-Hasani, I 
will refer to you as Speaker, a habit we have in this country, 
once a Speaker, always a Speaker. Mr. Karim AlMusawi, 
Washington representative, Supreme Council for Islamic 
Revolution in Iraq, and we appreciate very much your being 
here. And Mr. Qubad Talabany, representative of the Kurdish 
Regional Government of Iraq to the United States. Again, we 
thank you.
    I'm going to ask, given there are so many of my Democratic 
colleagues who are here, I'm going to have them start out. But 
I would like to say it's the hope of the committee that we 
will, during the course of your opportunity here, have you 
speak to the issues involved with reconciliation, like oil 
revenue sharing, debaathification reform, federalism; are we 
going to see autonomous regions, see a much more centralized 
government; militia control and the value of militia and how 
you deal with militia; the issue of amnesty.
    Then, after we have done that, I hope that before you leave 
you would then address what this panel is--today, I'll say it 
my way and I will say it Mr. Kucinich's way--the consequence of 
leaving, the consequence of staying, however you want to. I 
think it will bring out the same debate.
    So I would like you to, if you would like to, just since 
you're back on the panel, to maybe make like a 2-minute opening 
statement if you choose to, just some reaction you want. And 
then we will have Mr. Kucinich start the questioning, then go 
to Mr. Lynch and Mr. Van Hollen, and I'll conclude. We'll do 
10-minute rounds and get to our next panel.
    Any opening statement that any you would like, preferably 
not read, but just shared with us?
    Mr. Speaker.
    Dr. Al-Hasani. Thank you. First of all, let me appreciate 
all the concerns both Democrats and Republicans have about 
what's going on in Iraq, concerns about the people here in the 
United States and the troops over there and the Iraqi people.
    Let me again reiterate that I'm here as Iraqi nationalist 
and I would prefer to be referred to as Iraqi nationalist 
rather than Sunni. And I think the number of Iraqi nationalists 
are increasing since the change happened in Iraq.
    I want to touch on some points that some of the Members 
made. Whether there was a relationship between Saddam Hussein 
and September 11, I don't know whether there was a relationship 
between Saddam Hussein and the September 11 incident 
specifically, but I think there was a relationship between 
Saddam Hussein and al Qaeda.
    There is a road in Baghdad called Airport Road. It was 
packed by close to 3,000 Arab fighters and foreign fighters 
when American troops got into Baghdad, and hundreds of them, 
they died on that road. So I am sure there was some kind of 
connection between Saddam Hussein's regime and al Qaeda.
    I think it's important for us to remember why we went to 
Iraq. It wasn't just to liberate Iraq. I think we went to Iraq 
to fight terrorism. Have we accomplished that? I don't think 
so. Terrorism is still there, and I think if we do not stay the 
course fighting terrorism--I'm not talking about just what's 
happening in Iraq fighting terrorism--I think terrorism will be 
coming back at us again.
    There are certain turnarounds in Iraq in the last 6-8 
months. I would like to mention some of these things because 
these are some important events, positive events that's 
happening in Iraq and people are not paying attention to them.
    There is right now, because so many people talked about the 
failure in Anbar Province, in Anbar Province there are a lot of 
things, lot of positive things are happening. Today in 
Washington Post there was an interview with an Arab Sheik from 
Al-Anbar whose tribe is fighting along with American troops 
fighting al Qaeda and Saddam in Anbar. There are certain 
insurgency groups right now fighting with al Qaeda and 
Saddamist groups in Anbar.
    I would like also here to mention, since Ambassador 
Khalilzad came to Iraq, I think he played a very important 
critical role in getting Iraqi closer, and I praise that role 
and I think he's doing wonderful job in that regard. He did a 
wonderful job when we were working on the constitution. He is 
doing a good job right now in Iraq.
    Another positive thing that's happening in Iraq: For the 
first time most of the Iraqis, they agree on the personality of 
the Prime Minister. Today Sunni Arabs, Shias and Kurds, they 
don't have a problem with the Prime Minister. That wasn't the 
case with Allawi or Jaffi. That's a positive thing. We have a 
leader that we can talk to and agree with him on his 
reconciliation initiative.
    There is an Iraqi national government today. Sunnis, Shia, 
Kurds, everybody is participating in that government, even the 
Iraqi nationalists are part of that government. That's a 
positive thing that nobody is paying attention to it.
    People talked about we need to transfer here the power to 
the Iraqi Government. Absolutely. We want that. But on what 
condition do we want that? With the current situation, no. We 
need to have some kind of balance in the government which is 
not there yet. I said we have a national unity government but a 
lot of the institution is not balanced yet.
    You are talking about some of these institutions like the 
army and the police forces. You don't have real representation 
of the Iraqi societies in both these institutions. We need to 
fix that before the troops leave Iraq and then, yes, we need 
the Iraqis to get the power.
    This fight that's going on in Iraq, it's not Iraq's 
specific fight. We've got to remember that. All these killings 
that's happening, it's happening by the proxies of other 
countries in Iraq. And I don't mean any specific country. There 
are many countries involved in Iraq, supporting this group or 
other group. This is a fight between the United States and 
other countries in Iraq. So it isn't just a fight between 
Iraqis themselves. It's not Shia and Sunni fights.
    I think the fights that you are seeing, it's between the 
political parties that claim that they represent this side or 
the other side. Iraqi people are normal people, and I say that 
honestly, and I swear in this committee, they don't have 
problems between themselves, Shia and Sunni. I have many 
friends who are Shia, I have many friends who are Sunni. I 
defend the Kurds and Shia more than I defend the Sunnis if they 
are oppressed.
    Mr. Shays. Let me have you end on that nice note.
    Mr. AlMusawi.
    Mr. AlMusawi. I would like to also comment about progress 
in--the political progress in Iraq. We have right now Council 
of Representatives----
    Mr. Shays. I'll ask you to speak a little louder.
    Mr. AlMusawi. We have Council of Representatives today in 
Iraq, we have a constitution, we have an elected government, we 
have Prime Minister, and we have national unity government.
    Regarding to the balance in the government, I believe there 
is a balance in the government today. And we took two issues to 
work on: the national unity and also the consequences of the 
last election in Iraq.
    I would agree with Dr. Al-Hasani about the links between al 
Qaeda and Saddam Hussein. Besides that we have to talk about 
the human rights in Iraq. I think there is an ethical 
commitment for the United States to help Iraqis to get rid of 
this brutal regime. Also, there is mutual mission today. We 
have to achieve, we have to accomplish this mission together. 
We shouldn't talk about the past, which was right or wrong. We 
are right now in a very serious condition in Iraq. We need some 
help from our partners, from the international community, in 
particular from the United States, because we believe we have a 
mutual mission and we have to have some partners to help us 
there.
    Regarding the security situation, I would also comment that 
we have a problem with our neighbors and, unfortunately, this 
is the frankness--that transferring Iraq from centralization to 
decentralization, this is a huge and very serious transfer. 
Some other countries, unfortunately, are fueling the violence 
and they don't accept the serious participation of the Shia in 
the government.
    This is my advice to all Iraqis--and I think we are working 
on this--that we have to get along with each other, we have to 
accept each other, we have to accept the new reality in Iraq, 
we have to understand that democracy is the only solution. We 
have to understand that the diversity, diversity of the Iraqis 
will not be content only by federalism.
    These issues are the most crucial issues, debatable issues 
in Iraq right now. We have to accept them and then we will for 
sure make some good progress in Iraq.
    The problem actually also about the death squads, we have 
to understand there is some problems between Iraq and other 
countries with our neighbors, and from that we need as Iraqis 
the help of the international community to talk or to see some 
commitments through the United Nations or through other 
institutions that could help Iraqis to protect borders.
    I think there is serious interference from all our 
neighbors, there is no exception. And actually the visit of the 
Prime Minister Maliki--one of these signals that he's talking 
to the Iranians and other countries--they are also fueling the 
violence.
    The death squads, we do not have any evidence so far about 
those death squads. Some of our--some Iraqis whom accusing, 
unfortunately, without any evidence. I would be very frank with 
you, that organization since 2003 dismantled from military 
brigade to a civilian organization, civil organization, and 
right now it's concern about reconstruction and development.
    We have to stop accusing each other as Iraqis, if we don't 
give up, from this kind of accusation and we have to get along 
with each other and to accept each other, or we will not reach 
an agreement in Iraq. I think we still need the help of our 
partners, Americans. We believe they are doing a great job 
there and we believe together we will achieve our mission in 
Iraq.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    Mr. Talabany.
    Mr. Talabany. Thank you, Mr. Chairman. Thank you for 
allowing us to come back and continue this very important 
discussion. I agree with most of what my esteemed colleagues 
said, so I won't repeat them. But I would like to repeat one 
thing that Speaker Hasani said regarding the role of Ambassador 
Khalilzad: I think your Ambassador in Iraq has played a 
remarkable role in most of the discussions that have been going 
on and have served your country and people very well and we 
would like to thank him for his efforts and his role.
    I think what's happening in Iraq today is a mixed bag where 
we cannot just continue to focus on the negative. We cannot 
belittle the negative, we cannot belittle the challenges that 
we face. We face serious and grave challenges in this country. 
But I think my two colleagues have highlighted some of the 
successes and some of the progresses that Iraq has had since 
liberation.
    Iraq is a large country with a large population, and not 
the entirety of this country is in turmoil. There are large 
portions of this country that are stable and secure, where 
people can go about their daily lives. The Kurdistan region is 
an example. Many parts of the south are calm and quiet. Even 
certain areas of Baghdad are even today calm and quiet.
    Unfortunately, there is violence and it is important to 
note the violence and it's important to address the violence, 
but this violence is happening in targeted areas of the 
country, and this is the violence that is making the airwaves, 
this is the violence that is making the news and is dominating 
the debate on Iraq.
    Sectarian violence is hurting this country called Iraq, and 
the hurt is painful. And we cannot ignore it and we cannot 
think that it is not existing. It does exist and we must tackle 
it. But we mustn't take our eye off the real challenge and the 
real danger Iraq faces and that is al Qaeda, that is the threat 
of extremism on all sides, all forms of extremism. It is al 
Qaeda and the remnants of Saddam's former regime that are 
fueling what has now become the sectarian violence in the 
country, and we are too quick to change focus and focus our 
efforts on the sectarian violence while sometimes forgetting 
the real, real danger to the United States, to the Middle East 
at large, and to Iraq in particular, and that is al Qaeda and 
the former Ba'athists of Saddam Hussein.
    I think in my opinion it may be more useful for me to end 
my talk here and engage in a dialog.
    Mr. Shays. Thank you. The Peace Corps volunteer in me is 
just so grateful that the three of you are here and I am so 
grateful that my colleagues are here as well.
    Mr. Kucinich, you have 10 minutes. If you need a little 
more, that's fine too.
    Mr. Kucinich. Thank you very much, again, Mr. Chairman, for 
holding these hearings and providing this opportunity to hear 
from representatives of the people of Iraq. I want to welcome 
the witnesses and say that whatever our views are on the 
politics of the United States, I think that all of us have a 
great deal of compassion for the struggle of the people of 
Iraq, for the losses which the people of Iraq have incurred, 
for the suffering and the pain of the people of Iraq over many 
generations, for the difficulties you find yourself in right 
now trying to figure out how you can achieve stability under 
extraordinarily difficult circumstances.
    The people of Iraq did not choose this war. This war was 
chosen by the Government of the United States. Therefore, I 
think that there is a tremendous amount of compassion which 
flows to you from people everywhere. We recognize the 
difficulty you find yourself in and we join you in longing for 
a reconciliation.
    This is a process we have to go through in our own country 
because of the divisions which this war has created in our own 
society. In South Africa the process of reconciliation, which 
was so important to ending the tradition of apartheid, was 
preceded by an insistence on truth, so that truth and 
reconciliation was presented simultaneously as the imperative 
for rebuilding the society.
    This is something that we're faced with in the United 
States as we try to once again unite our country. And I'm sure 
it's the same kind of difficulties that you will find. For 
example, we grapple with the concerns that you expressed about 
the connection between Saddam Hussein and al Qaeda. However, 
just recently a report of the Select Committee on Intelligence, 
which I have a copy of here, was very detailed in discounting 
those connections, which, in this country, was given as one of 
the causes of war. We were told that Saddam Hussein had weapons 
of mass destruction in the context of them representing an 
eminent threat.
    I have to tell you how my heart went out to the people of 
Iraq when I saw the initial bombing campaign.
    I don't know if any of you were in Baghdad or in Iraq at 
the time, but I can only imagine the terror that struck the 
hearts of people who were undergoing a massive bombing 
campaign. I think that it's important for us to find ways in 
which we can be supportive.
    I happen to be convinced that the long-term presence of our 
troops there, despite the desire of you to see them stay for a 
while, may not be productive, but I want to ask you these 
questions, and maybe we could start with Dr. Al-Hasani.
    What is the percentage of Iraqis now who have water 
throughout the day? How many Iraqis have access to water 24 
hours a day?
    Dr. Al-Hasani. I think water is not a big issue in Iraq. I 
think, probably more than 70 percent of Iraqis, they have 
access to water.
    Mr. Kucinich. And what about access to electricity----
    Dr. Al-Hasani. That's a problem.
    Mr. Kucinich [continuing]. 24 hours a day?
    Dr. Al-Hasani. That's a problem. That's a big problem.
    Mr. Kucinich. Can you explain to us how it's a problem?
    Dr. Al-Hasani. Well, most of the Iraqis probably wouldn't 
get 4 hours of electricity per day. We tried very hard from the 
beginning to fix that problem, electricity problem in Iraq; and 
I think we couldn't do it for different reasons. One of them 
was terrorists attacking, you know, the electricity lines or 
generators. The other problem was corruption. Definitely, 
millions of dollars went, you know, through corruption which 
was supposed to be spent on electricity.
    Mr. Kucinich. One of the hearings that this subcommittee 
had was concerning the accountability for $10.8 billion in Iraq 
reconstruction funds.
    Have you seen evidence of substantial reconstruction in 
Iraq that has helped to stabilize the society in Iraq?
    Dr. Al-Hasani. To stabilize regarding reconstruction?
    Mr. Kucinich. Yes, reconstruction.
    Dr. Al-Hasani. Yes.
    Mr. Kucinich. What have you seen?
    Dr. Al-Hasani. I've seen it in places like Somalia and 
Fallujah. I was heading the committee of reconstructing 
Fallujah. It definitely, you know, had a very positive effect 
on Fallujahns. There were other efforts in other places, some 
of them failed; and, you know, as I mentioned, it failed mainly 
because of the corruption of the Iraqipeople who were 
responsible for the reconstruction and those also were headed 
by Americans, American companies. There was also corruption in 
that regard, too.
    Mr. Kucinich. We just had a report which has been alluded 
to with respect to Anbar Province, how, according to a senior 
Marine intelligence official, the situation in Anbar Province 
has deteriorated to the point of where it's considered 
militarily not sustainable at this point. My question to you 
is: If Fallujah is in Anbar Province, how does the progress 
that you report on square with the instability which we hear 
being reported?
    Dr. Al-Hasani. Let me say, first, I disagree totally with 
that report. I don't think there is in this room someone who 
has experience with Anbar or even the Iraqi Government, in that 
regard, as I do. I was leading the negotiation at the time in 
2004 when the Fallujah thing, you know, erupted. I've been 
involved in Anbar Province since then. I think things in Anbar, 
although it is not to my likingness, but it is getting much 
better than it was before.
    I'm very surprised of reports saying that we are losing 
Anbar. We are gaining Anbar. We had, you know, places that--you 
know, tribes. As I said, even some of the insurgency groups who 
are national insurgents, you know, people call them 
``resistance''. These--even these people are turning their guns 
against al Qaeda and Saddam's loyalists. I say that for a fact. 
I know these facts. I live these facts every day in Anbar.
    Mr. Kucinich. Doctor, you started off in your brief 
testimony indicating your feelings about the connection between 
Saddam and al Qaeda; and I appreciate hearing your sentiments. 
We, however, have a report by our Senate Select Committee on 
Intelligence that indicates that there was no connection.
    I appreciate your observation about Anbar. We have a report 
by a senior Marine intelligence expert saying that the 
situation is out of control. I appreciate what you say about 
the situation improving in Anbar, but we're getting reports 
that the level of violence and the actual incidence of violence 
are increasing and, actually, that it appears to be higher in 
Anbar than perhaps any other province, especially in the last 
few months.
    So I think that it's important for us to hear from you; 
and, at the same time, we're presented with this challenge, Mr. 
Chairman, of squaring information that we get from people who 
are on the ground there with the testimony of the witnesses. 
And this is the difficulty because, in order to arrive at the 
truth, we have to get some symmetry; and we're having 
difficulty getting that. The best information we get, Mr. 
Chairman, is that there's information that is at a variance 
from what the esteemed Dr. Al-Hasani says. I know that we have 
to go on to other Members, and I'm not--would I be permitted to 
ask any of the others' questions?
    Mr. Shays. I think it would be good to invite the two other 
gentlemen to respond to your questions, and I'm happy to have 
you have more time.
    Dr. Al-Hasani. Can I make just one point regarding Anbar?
    Mr. Kucinich. Sure.
    Dr. Al-Hasani. I said in my testimony at the beginning, you 
know, there were mistakes that has been done by the United 
States when they went over there; and I explained those 
mistakes, you know, what were these mistakes.
    I think sometimes, you know, I'm getting the feeling there 
is some kind of conspiracy against Anbar when people are 
reporting reports like this. This is--I know for a fact this 
report is not true because I'm involved in Anbar. I know what's 
going on in Anbar; and I'm very, very surprised to hear a 
report saying that, you know, we are failing in Anbar; Anbar is 
uncontrollable. I know we have problems in Anbar, but I think 
the improvement we are seeing in Anbar--you know, it's much 
bigger than what people are thinking about it. That's why I'm 
surprised someone from the Marine writes a report like this 
one; and I say that, you know, honestly; and I'm ready to 
testify in other forms to tell you more information about 
what's going on in Anbar.
    Mr. Kucinich. Again, in response to Dr. Al-Hasani, I take 
what you're saying in this light, that you have much courage 
and a passion that is informed by optimism; and I respect that. 
At the same time, I'm confronted with a report that says that 
the influence of al Qaeda is actually being increased in Anbar, 
that now we're going to--I know, Mr. Chairman, you have 
indicated an interest in kind of going into that a little bit 
deeper, and I don't in any way intend to, you know, want to 
denigrate your assertions. I'm just saying this is the 
information we're getting.
    Now, I wanted to, if I may, Mr. Chairman, ask Mr. AlMusawi: 
We've been getting some--actually, numerous reports, and 
there's published reports now of death squads that occupied 
Iraq. I'm particularly concerned about the role of the Ministry 
of Interior. Are you familiar with a brigade called the ``Wolf 
Brigade''? Have you ever heard of that?
    Mr. AlMusawi. Yes.
    Mr. Kucinich. And have concerns been expressed inside Iraq 
about the activities of the Wolf Brigade with respect to 
whether or not they truly represent the aspirations of the 
people of Iraq?
    Mr. AlMusawi. There is no--as I mentioned before, there is 
no certain evidences that--whom those death squads are, belong 
to which party or to which sect. So, again, I would say that 
the death squads is unknown people right now, but what I could 
assure you that, after the explosion of Samawa, there is some 
Shia extremists take that initiative and try to reaction 
against the Sunnis, and this is--again, this is the law and 
again is the religious leaders' statements and degrees--
degrees.
    The death squads, again, this is unknown people, and we 
have to focus on moving the interior and defense secure 
ministries to take the initiative all over Iraq. There is some 
problem there and some Governorates, and I think the government 
should be--should have full power in all the Governorates, and 
this is belong to how to equip the Iraqi troops, how to recruit 
them and then how to let them control the city. We propose that 
maybe the people's community could help--communities--could 
help and decide to let the Iraqis, themselves, help themselves 
to protect their cities and towns.
    One of the issue I would like to comment also about, how to 
make progress in Iraq and security on other sites, also. I 
think it's very important in this case to work on setting--or 
set priorities in Iraq. For example, some cities, we have to 
work on the security side, but the security isn't priority in 
some southern cities, but the security is very crucial, 
important and, for example, in Anbar or in Diyala or in 
Baghdad. Setting the priorities is very important to help some 
progress here.
    Mr. Kucinich. I thank you.
    I just want to ask a followup question to Mr. Talabany; and 
that is that we get various reports here of, on one hand, a 
number of killings have been attributed to Shia militias. On 
the other hand, we get reports saying the attribution to Shia 
militias is unsustainable and that a major element in these 
killings would be what could be called ``state sponsored'' 
coming from the apparatus of the Iraqi state through the 
Interior Ministry. This is of great concern to us because, when 
you see all of this carnage, these reports of so many people 
dying, do you have any sense of where this is coming from?
    Mr. Talabany. Sir, I disagree with the statement that the 
killing is a state-sponsored killing. I think--excuse me--Prime 
Minister Maliki has made it one of his top priorities to stamp 
out the actions of the death squads, and the new Minister of 
Interior is trying very hard to clean up his ministry.
    I think in the past there were clearly elements within the 
Interior Ministry that were carrying out attacks against Iraqi 
civilians.
    Mr. Kucinich. But you're saying that's not happening now.
    Mr. Talabany. I think it is a priority of the Maliki-led 
government to end this activity, and the focus is on the 
international communities watching. We know that this cannot go 
on; and this is an issue, I think, that the Iraqi Government 
has to address and address firmly.
    Mr. Kucinich. Thank you, Mr. Talabany; and thank you, Mr. 
Chairman.
    Mr. Shays. I thank the gentleman very, very much. Thank 
you.
    Mr. Lynch has the floor.
    Mr. Lynch. Thank you, Mr. Chairman.
    Just on that note, Mr. Talabany, I do know from when I met 
with your dad that your cousin was gunned down as well in 2004, 
so we understand, you know, how this whole conflict has 
affected your own families. That is not lost on us; and we do 
acknowledge the courage that has been shown by the Iraqi people 
in trying to fight for democracy, 8 million Iraqis coming out 
under the threat of execution to come out and vote. Sometimes 
in this country we can't get them to come out when it rains, so 
we understand the courage that is being exhibited there.
    While I'll acknowledge that--the establishment of the 
parliament, and I was in Fallujah not too long ago, back in 
April. I got to meet with some of the members of the Fallujah 
city council, newly established. There has been progress.
    However, also, I got to spend a couple of days there 
because of one of your sandstorms, and during my stay, the 
electricity went out, and the U.S. Marines' Civil Affairs Unit 
had to go out and get the electricity back on. I was in Tikrit. 
In some of the circumstances, the army engineers had to go out 
and get the water back on. It just seems to me that some of 
those basic services--and I've heard it from Iraqis as well--
that they would like more power to provide basic services to 
the people who elected them.
    I know what would happen in my district if I was elected 
and yet every time the water went out and all the electricity 
went out I was powerless and my constituents had to go to some 
other group or government in order to get basic services 
restored. I would lose credibility very quickly. And that's 
sort of the anxiety that I heard among the Iraqi-elected 
leadership, that they weren't being given enough opportunity to 
do the things that governments should be doing.
    I was also up on the border with Syria in Alheim, and 
there's a checkpoint there, a port of entry between Syria and 
Iraq, and I was surprised to find that most of the laborers 
there building that checkpoint were actually Indian. They had 
been hired by the contractors there, so there were Indian 
laborers. Here we are with 60-percent unemployment in Iraq, and 
we have Indian laborers building the checkpoint on the border 
with Iraq, between Syria and Iraq.
    Just a point on democracy, and it's sort of a sidelight. 
There is nothing that makes my constituents happier or more 
content than when I can put them to work. If you can give them 
jobs, that will go a long way. So we need to figure out a way 
during this reconstruction process.
    If we're spending money there, for God sakes, we should be 
putting Iraqis to work and not--you know, not otherwise. I 
think that would be a simple but constructive way to reduce 
some of the tension there. With such high unemployment, it just 
creates a ripe situation for insurgency and for unrest, I 
guess.
    I just want to ask the three of you in no particular order, 
would it not be helpful--let me just back up a little bit.
    I've been to see General Casey--I think I've seen him five 
or six times when I've been over there, and his job is--his No. 
1 job--he has many jobs, and he's performing them all very 
well, and he's very courageous, but his No. 1 job is dealing 
with the military situation in Iraq. That's his prime 
responsibility. He is also responsible--he's been given the 
responsibility of transitioning the power from the military to 
the Iraqi civilian government.
    However, every time we have a renewed insurgency--and most 
recently in Baghdad but there have been other examples as well. 
When I was there, it was Rhamadi. Fallujah was very quiet, but 
Rhamadi was exhibiting very high unrest, a lot of violence.
    Would it not be to your benefit to have a body, to have a 
commission established whose primary and specific 
responsibility would be to move government operations, the 
responsibility for government operations, from the U.S. 
military to the Iraqi civilian government in areas like 
electricity production, transmission, generation, water 
systems, schools, hospitals, those things that we're doing 
right now with tens of thousands of U.S. military personnel? 
Would it not help you in terms of credibility and, I think, a 
maturing government----
    I know the framework is there. The framework is there. 
We've established the framework of government there through the 
elective process. But would it not be helpful--and I've 
sponsored legislation to make this happen from our end, that we 
create a panel to see this transition of power. Wouldn't it 
help if, you know, the Iraqi Council of Representatives and the 
local government there had a corresponding body to accept the 
transfer of power?
    I'll leave it to you to answer.
    Dr. Al-Hasani. It would be very good, you know, to transfer 
this thing to the Iraqi side provided there is an 
accountability system.
    The problem we have in Iraq--and I think you have the same 
problem with the American projects over there. There is no 
accountability system there. That's why corruption continues. 
We need to have a system where we can hold people responsible 
if they misuse the money.
    The projects that you are talking about are not Iraqi 
projects because, Iraqi projects, we do it. The Iraqi 
Government carries the Iraqi projects. You are talking about 
the money donated by the United States or other countries; and, 
long ago, I thought it would be better to give that money to 
the Iraqis provided you have accountability system and let them 
do that job.
    You also have to followup where the money's going. It's 
your money. When I donate money, I want to know where that 
money is spent. You don't have that system. We don't have that 
system. We are trying to put a system that will make people 
accountable for what they are doing with the money invested in 
electricity projects or health projects or building road 
projects or other, you know, economic projects in Iraq, but, 
until now, I don't think we have done a good job.
    Three-and-a-half years of different governments, Iraq's 
electricity system is deteriorating. We have less electricity 
than we used to have before. Water is a problem, but it's not 
as big problem as electricity. Health system, we have problem 
with that. We don't have hospitals enough that can treat many 
illnesses, including cancer, which is spreading like rain in 
Iraq because of different reasons. We don't have enough 
hospitals to treat, you know, cancer patients and other 
illnesses that we never experienced before.
    So, yes, I think it will be good for the Iraqis to take 
that responsibility, provided that you and us, Iraqis, have an 
accountability system that can followup on this one.
    Thank you.
    Mr. Lynch. Mr. AlMusawi.
    Mr. AlMusawi. I had a meeting yesterday with one of al 
Maliki's advisors--he's here in the States--and he informed me 
that al Maliki is willing to make some changes in his cabinet 
to get some more competent ministers, and I think he is willing 
to do so, and this is one of his projects to make some progress 
in his time as prime minister.
    I will give you an example about the corruption and about 
the accountability that Dr. Al-Hasani mentioned.
    The last--the former electricity minister imported big 
generations--generators--sorry--for electricity. Those 
generators working with special oil should be imported also 
from Turkey. This kind of corruption in Iraq could have--I 
don't know how many oil in Iraq we have, what this is, and so 
the corruption is--right now, we do not have a qualified anti-
corruption community. We do not have a powerful authority, 
judicial authority, so I think all these should go--should work 
together. Otherwise, I don't think we can make transfer just 
overnight.
    Al Maliki is willing to do some changes. Al Maliki cabinet 
and Maliki, himself, should find some support, and we should 
enable him to work together with him. I mean, the United States 
should give al Maliki chance to improve his government 
practicing.
    Al Maliki also mentioned that one of his problem, actually, 
is that some political parties that didn't supported him or 
enabling him to get rid of some obstacles, and one of these 
obstacles he couldn't do the changes in the government.
    So, from that, I would say just there is--we have, again, 
to activate the political community of the National Security 
Council. Those are the leaders of Iraqi--the leaders--the 
political leadership of Iraq, and they have to enable Maliki to 
do some progress. It is not only al Maliki's duty. It is all 
Iraqis' duty and also the Iraqi political parties as well.
    That's it. Thank you.
    Mr. Lynch. OK. Thank you.
    Mr. Talabany.
    Mr. Talabany. Congressman, there has been gross 
mismanagement of Iraq's reconstruction, since Operation Iraqi 
Freedom, on both sides. I think we haven't proven to be capable 
to administer the kinds of funds that we have received, and I 
think there has been too little oversight into the funds that 
U.S. contractors have been implementing in the country. This 
has led to a worsening of the security situation in the 
country.
    The economic development goes hand in hand with political 
and security development, and I think we have focused too much 
of our efforts on building up the political process and 
building up our security forces without really looking into the 
impact of economic development in Iraq. It's important that we 
build solid, transparent and accountable institutions in the 
country.
    We have focused on finding the right ministers to run that 
ministry, but we haven't looked into building up the 
institution of the ministry. A good Minister of Interior alone 
cannot turn that ministry into a functioning, effective and 
professional military. It's going to require a cadre of 
offices, mid-level and low-level offices, that aren't there at 
the moment.
    Whether we're not looking hard enough, whether they've left 
the country, whether there's too much political interference 
from different political parties, there are a variety of 
reasons why the situation is as it is, but I think we need to--
in order to effectively govern and effectively spend our 
resources--which there are plenty of resources in the country. 
Iraq does not lack money, but it lacks an ability to 
effectively spend that money, and that is, I think, something 
that we still need assistance from the United States on, we 
still need a partnership on in training and building up our 
capacity to be able to administer our resources.
    Mr. Lynch. OK. In closing, I just want to say, as Mr. 
Kucinich talked about earlier, we had--at the end of the 
Coalition Provisional Authority before the Iraqi interim 
government came into effect and actually received power from 
the Coalitional Authority, we had between $9 and $10 billion, 
most of that in cash. We're doing additional hearings in this 
committee on the mismanagement on the U.S. side, the largest 
single cash shipment in the history of the Federal Reserve Bank 
out of New York. We've tracked it, because we have very good 
records, when it left New York, planeloads of cash, and we can 
track it when it arrives in Iraq. We have the testimony of 
individuals on the ground who received the shipment, and then 
we have stories of Humvees and vehicles with duffel bags full 
of cash bouncing through the desert, and then we have about $9 
billion not accounted for. So, you know, those----
    We've also got stories of corruption, of Halliburton 
employees and bribes being paid to Kuwaiti businessmen; and 
there's a long, sordid story there that we're going to have to 
get to the bottom of.
    But, in the meantime, the American people are losing 
patience. You know, the financial cost here, as significant as 
it is, is secondary to the loss of life that we're experiencing 
among our sons and daughters; and I think unless we see some 
accountability, if you will, some examples of success and of an 
opportunity for us in the near term to withdraw our troops and 
bring them home, unless we see that----
    You know, we're hearing from the President that, during his 
administration, he does not intend to bring troops home, in 
other words, stay the course; and that is--as my colleague from 
Maryland said, that ``stay the course'' is a slogan; it's not a 
plan. And there's a significant body of opinion in this country 
that the plan has to change.
    So my recommendation to you would be you need to help us 
help you in a hurry, in a hurry, and take that back to your 
government, please. But we need the Iraqi Government with all 
its challenges--and I appreciate the courage and the leadership 
you've shown under very difficult circumstances--but the clock 
is ticking here, and we need to see significant assumption of 
responsibility by the elected Iraqi Government, and we need to 
see the very real possibility of reducing our troop levels in 
Iraq in the near term.
    Mr. Shays. I thank the gentleman very much and say to our 
next panel, we do really deeply appreciate your patience. We 
have Mr. Van Hollen and myself, and then we'll be going to our 
next panel.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I do want to thank all the witnesses here, again, and just 
a comment to start with to Dr. Al-Hasani with respect to the 
issue of collaboration between al Qaeda and Saddam Hussein.
    I can tell you that I think that the Bush administration 
would welcome any information you have. We've had some 
exhaustive panels and hearings in this country. We had a 
bipartisan 9/11 Commission report looking into this question. 
Let me just read from their report with respect to this issue.
    They found bin Laden had, in fact, been tampering in Iraq. 
He was tampering in Iraq by, ``sponsoring anti-Saddam Islamists 
in Iraqi Kurdistan and sought to attract them into his Islamic 
army.''
    He goes on to point out that bin Laden continued to aid a 
group of Islamist extremists operating in part of Iraq and 
Kurdistan outside of Baghdad's control. In other words, Osama 
bin Laden was tampering in Iraq, but he was tampering in Iraq 
in a way in opposition to the regime of Saddam Hussein, not in 
collaboration with it.
    We've just had another report out of the Senate Select 
Committee on Intelligence's bipartisan group exhaustively 
looking at this question for many, many years; and their 
conclusion is that there was no collaboration between the two.
    Now, you cited some, you know--I don't know--Arab fighters 
on the streets. I'm not trying to be--I think it's important 
that we get our facts straight, and I hope one of the lessons 
that this country learns is that we need to make our foreign 
policy and national security decisions based on facts and not 
on speculation.
    All I can say is we've now had two exhaustive bipartisan 
looks at this very question, and both of them have concluded 
that there was no collaboration between Saddam Hussein and al 
Qaeda; and, in fact, to the extent that al Qaeda was active in 
Iraq, they were doing so in opposition to Saddam Hussein.
    Just a comment, Mr. AlMusawi. You mentioned the issue of 
human rights, and I couldn't agree with you more on the issue.
    Mr. AlMusawi. Say again, sir.
    Mr. Van Hollen. You mentioned the sort of moral imperative 
with respect to the human rights situation in Iraq, and there's 
absolutely no doubt about it, that Saddam Hussein was a brutal 
dictator. I would just recall--and I don't want to go into this 
in great detail--back in the 1980's, when Saddam Hussein was 
using chemical weapons against the Kurds at the end of the 
Iran-Iraq War, my former colleague on the staff of the Senate 
Foreign Relations here, Peter Galbraith and I, traveled to the 
Turkish-Iraq border and interviewed thousands of the Kurdish 
refugees who were crossing that border because they'd been 
gassed by Saddam Hussein.
    We documented that. We came back to Washington. We urged 
Members of the Senate to introduce legislation to impose 
economic sanctions against the government of Saddam Hussein to 
punish him for his use of chemical weapons--this is in 1988--
and the Senate did that on a bipartisan basis, but the Reagan 
administration that was in power at the time actually opposed 
that legislation. They opposed legislation to impose economic 
sanctions against Saddam Hussein for his use of chemical 
weapons against the Kurds.
    So I've always found it quite hypocritical for Members of 
this administration, some of whom were there during the Reagan 
administration, to say today that the reason we went into Iraq 
with our military forces this time was, in fact, for human 
rights reasons and pointing to the use of chemical weapons 
against the Kurds when they weren't willing to impose even 
economic sanctions at the time.
    And let me also say this. At the end of the Persian Gulf 
War in 1991, it was an absolute tragedy that the United States 
did not do more to protect the Shia in the south at the end of 
that war. I couldn't agree with you more. We did create a no 
fly zone in the north; and, in fact, the north was fairly 
stable, as you know, from that time on.
    So I couldn't agree with you more that there have been 
human rights tragedies in Iraq, and it's a very important part 
of this conversation. But for this administration to claim that 
as a justification for military action does not hold water 
given their past conduct and the conduct of others in the 
administration in that regard.
    Now if I could just ask all of you. We're going to hear 
from a later panel here. Two of them have recently written 
books with regard to Iraq. We have Dr. Fouad Ajami, who is 
here, and Ambassador Peter Galbraith; and I just want to read a 
little piece out of a review that jointly reviewed those two 
books. In The New York Times, it was a review written by Noah 
Feldman, and he titled it ``Out of One, Many,'' and the first 
paragraph of that review reads as follows:
    ``critics of American policy in Iraq since 2003 have 
sometimes charged that the United States created the sectarian 
divisions in the country by treating Iraqis as Shiites, Sunnis 
or Kurds rather than simply as Iraqis, but the opposite has, in 
fact, been the case. Under the influence of exiles like Ahmad 
Chalabi, administration officials anachronistically insisted 
that Iraq was cosmopolitan and post-ethnic. The most serious 
intellectual deficit that has plagued the American presence in 
Iraq and a crucial reason for our repeated failure to predict 
Iraqis' behavior has been insufficient awareness of the 
conflicting perspectives of Iraqis from different backgrounds 
and communities.''
    Now, I understand that the testimony you've given today and 
other days sort of contradicts that essential message, but I'll 
ask you if you could each respond, and I'm going to--one to an 
issue raised through Dr. Ajami's book and then one Ambassador 
Galbraith's; and it's a little bit unfair to Dr. Ajami, because 
I'm essentially putting forth the position of his book as 
expressed through someone who reviewed the book.
    But he says the core argument is that the trouble we're 
seeing in Iraq results from a profound unwillingness of Sunni 
Arabs in Iraq and elsewhere to accept the rise of power of 
Shiites in what is, after all, their own country. Shia Arabs 
have long been second-class citizens, repressed and kept from 
political power even where, as in Iraq, they are the numerical 
majority. And he goes on to say that is the fundamental issue 
here.
    If you could please each respond to that, that the 
fundamental issue is the unwillingness of a Sunni minority to 
accept the fact that Iraq is a majority Shia and essentially 
will be governed by a majority that is Shia. That whole theme 
has been interwoven in the statements that all of you have made 
earlier, and I'm curious as to what your response would be.
    Dr. Al-Hasani. First, a comment on the relationship between 
al Qaeda and Saddam.
    I was in Baghdad on April 10th, 1 day after American troops 
captured Baghdad; and I don't care whether Saddam Hussein had 
relationship with al Qaeda or not. Right now, I don't care 
about it, because I know al Qaeda is very dangerous to Iraq. 
More than anybody else in Iraq, al Qaeda are the most dangerous 
group in Iraq. And I don't think you will find many people from 
a certain group in Iraq can come where the public can say 
something like this because we know the situation in Iraq and 
how dangerous it is, you know, to talk about al Qaeda or other 
groups, but I know----
    Mr. Van Hollen. Just on that point--and I want to make it 
clear. I wasn't saying that al Qaeda is not present and active 
in Iraq today. I think they--I think, in fact, al Qaeda is 
present in Iraq today, and I think they've taken advantage of 
the situation in Iraq that resulted from the invasion. So you 
have no argument with respect to that.
    Dr. Al-Hasani. Anyway, my information is al Qaeda was there 
on April 9th. They were fighting the Americans in Baghdad.
    Regarding the issue of whether there was a Shia and Sunni 
division in Iraq before American troops came, I think Iraq 
never experienced such a division between Shia and Sunni until 
1991 when Saddam Hussein attacked Shia provinces in brutal way. 
That's when this thing started to appear, but I think America 
contributed to that one. Ask me how. I will tell you how.
    When Ambassador Bremer came to Iraq and formed the 
governing council, it was formed based on this division--Shia, 
Sunni, Kurd--and you can go and look at 25 members of the 
governing council. You will see how it was formed. So that 
was--and since then, all the governments after that were formed 
based on that one. I don't want to talk about the majority 
issue.
    As I said, I don't care whether Shia are majority or Sunni 
are majority in Iraq because, in my eyes, these are all 
citizens of Iraq. I don't look at them, you know, whether they 
are majority or minority.
    But, again, when you talk in majority sense, there is 
political consequences of that one as if you are trying to say 
this country, at the end, has to be ruled by this sect or other 
sect. This is not the right way to build the new state of Iraq. 
Citizenry is much more important than pointing finger to 
someone, saying he's a Shia or he is a Sunni. That's what I 
don't want in Iraq.
    Who is the majority? We don't know. I don't think anyone 
can point and say that Shia are majority or the Sunni are 
majority because, when you exclude Kurds from the Sunni Arab, 
of course Shiite becomes majority in Iraq, but Kurds are Sunni. 
We don't have census that says who is majority; and, again, I 
end up by saying I really don't care who is majority in Iraq as 
long as they are loyal to Iraqi state, they are loyal to Iraqi 
people, and they care as much about their sect, the other 
sects, you know, as much as they care for their sect.
    Thank you.
    Mr. AlMusawi. I would say that, during the Saddam Hussein 
time, there was sectarian elimination, but under Saddam Hussein 
and his ownership to the Shia and the Kurds, that was unclear 
for some people in Iraq. But the reality is there was sectarian 
and ethnic discrimination, and the Shia, at least, they were 
not first-class people in there at that time, and this is the 
truth.
    I could say that the saying of Dr. Ajami is the crucial 
part of the reality. I would give you an example about this 
case and how the Arab countries, some sectarian countries, who 
are fueling this kind of sectarian, still is fueling, one of 
high-level official from our neighbors telling one of senior 
official--senior, senior official from my party--was not good 
for you guys, Saddam Hussein and somebody like that, to fuel 
this kind of situation.
    This is the mentality of these countries. They are really 
sectarian mentalities. They would not like to see a Shia in the 
power.
    I disagree 100 percent with my brother, Dr. Hajim Al-
Hasani, that he doesn't care who is the majority in Iraq. We 
don't need who's the majority, but the majority is the Shia. 
There is no question about it. But this is a privilege for the 
Shia? I would say this is not a privilege for the Shia to be 
majority or minority. We should accept each other again. We 
should work together to rebuild our country, and we should 
rebuild the democracy. The democracy is the only option, the 
only answer for all our questions.
    Thank you, sir.
    Mr. Van Hollen. Thank you.
    Mr. Talabany. Congressman, I'd like to take this 
opportunity to thank you and Ambassador Galbraith for caring 
about the Kurds back in the days when very few people cared 
about the Kurds and few joined efforts to bring to the 
attention of the international community the crimes that were 
committed against my people. So, on behalf of the people of 
Kurdistan, I thank you both for your efforts.
    Mr. Van Hollen. Thank you, Mr. Talabany.
    Mr. Talabany. We cannot ignore the Sunni-Shia divide, not 
in Iraq, not in the Middle East. This is an historic divide 
that has existed, and tensions have existed and will continue 
to exist, and if we continue to ignore that these things exist 
in Iraq, we'll fail in our mission.
    It is not for me as a Kurd to tell you what my Shia brother 
thinks or feels or what his--or his insecurities are. We each 
have insecurities, and all of our insecurities are valid. The 
Sunnis, they have insecurities. The Kurds have many 
insecurities.
    We have to over---the way we overcome these insecurities is 
by building a political process that can begin to address the 
main concerns of each community, and we haven't done that yet. 
We do have a national unity government where everybody is 
participating in the political process, but we're still coming 
to deal with the major issues that will ultimately bring these 
people together or polarize them even more.
    We couldn't have formed the governing council under the CPA 
days without addressing the quota system. Had we had a 
predominantly Sunni governing council, the Shia and the Kurds 
would have felt out. Had it been the other way, the Sunnis 
would have been left out and would have felt left out. And 
Saddam and successive Iraqi governments, not just Saddam's 
government, alienated Shia and Kurds from participating in the 
top level of government, did not make Kurds and Shia feel like 
Iraqis.
    The Iraqi army is a perfect example of this. Look at the 
officer corps of the Iraqi army, and let's find out what the 
percentages were, and you cannot tell our Shia brothers that 
this is insignificant. This is significant, and this is the 
core of the problems that we see today. It is that Iraq was 
founded on faulty logic 80 years ago, on the logic that 
everybody was Iraqi without anyone asking those people ``do you 
want to be Iraqi?'' we have an historic opportunity to address 
a mistake that was made 80 years ago today; and we should not 
let this opportunity pass by, ignoring realities on the ground.
    Thank you.
    Mr. Van Hollen. Thank you very much, Mr. Talabany. Thank 
you for your remarks, and thank you for your assessment.
    Mr. Chairman, in the interest of time, I have another 
question, but I think, in the interest of time, I can save it 
for the next panel. I want to thank all of you gentlemen for 
your testimony. Thank you.
    Mr. Shays. Thank you, gentlemen, very much.
    I'm going to ask--and I'm going to do something that I'm 
not comfortable doing. I'm going to be asking you to give some 
very short answers so we don't hold our next panel up, but I 
have a lot to cover, and if we don't have you respond to this, 
we will have failed to achieve one of our objectives.
    I'll preface my point by saying I felt the United States 
made huge mistakes in the first 12 months. We started to 
rectify those mistakes. The mistakes were all the things we've 
talked about--the disbanding of the army, the police, the 
border patrol, the looting, the lack of cultural respect for 
Iraq in general--but we started to turn it around, having now 
dug a deep hole when we transferred power to you, the Iraqis, 
in June where the Allawi government, even though it was--you 
know, it was formed not by an election, but it was a huge start 
in the right direction.
    We saw you in Iraq make huge, I think, huge progress, but 
there were deadlines that got you to do it, a deadline to elect 
a transitional government, a deadline to start the 
constitutional talks, a deadline to finish the constitutional 
talks, and you did it remarkably, a deadline to have an 
election to ratify that constitution, and met a deadline to 
elect that government.
    But, candidly, since January of this year, I see no 
deadlines, and I see no action, no action to set provisional 
elections, no action to really begin, in earnest, 
reconciliation, no action to complete the constitution. I know 
we're asking you to complete a constitution in 2 years when it 
took us 13, I know that, but the fact is I don't know if you 
have the time, and I fear you don't. So this is what I want to 
talk about, reconciliation.
    I happen to believe that we need to set some deadlines of 
transferring power. We said when the Iraqi troops stood up we 
would be able to take our troops out, and we haven't done it, 
clearly, because we didn't have enough security. But now we 
have 294,000 Iraqis who are trained and equipped, not all of 
them experienced, so we won't say that ``everyone,'' but there 
has been no step down.
    I don't believe we're going to see a step down until Sunnis 
and Shias, in particular, work out their differences. I pray as 
hard as I can pray that the Kurdish community is not going to 
see this as an opportunity to claim and want more in a 
landlocked region, because I see all hell breaking lose if that 
happens. I think your leadership knows that. I'm not sure your 
people do, and I fear that, and I want to say parenthetically 
how grateful I am to have you explain about not flying the 
Kurdish--the Iraqi flag because that was a flag of domination.
    My first question to all of you--I need a short answer--
isn't there logic in changing the flag? I mean, hasn't the flag 
been the flag of Saddam, and wouldn't it make sense to have a 
flag that all of you could feel proud to fly under?
    Let me start with you, Mr. Speaker.
    Dr. Al-Hasani. I, personally, don't have a problem changing 
the flag, but I think the problem is how are you going to 
change the flag.
    Mr. Shays. OK.
    Dr. Al-Hasani. Right now, the flag, the Iraqi flag, is the 
current flag.
    Mr. Shays. This is a minimal one of----
    Dr. Al-Hasani. The parliament will have to work on that 
one.
    Mr. Shays. Thank you. I have--there'll be other questions 
where you'll need to go in greater depth.
    Mr. AlMusawi. It's part of the constitution, article 12, 
talking about changing the flag. So that's----
    Mr. Shays. Fair enough. OK, and, you know, I don't know----
    Mr. AlMusawi. So it is no big deal for us to change the 
flag.
    Mr. Shays. OK, but we shouldn't misinterpret what has 
happened in the Kurdish area of Iraq by not wanting to fly that 
flag based on--it seems to me I understand a little better. 
Thank you.
    Let me ask you to tell me what is the hardest area of 
reconciliation. Is it the oil revenue sharing? Is it dealing 
with electricity? Is it debaatification? Is it federalism? Is 
it--you know, maybe, frankly, having more contractors be Iraqis 
as opposed to outsiders. Is it the militia control? Is it 
amnesty? Is it corruption?
    Tell me the hardest thing that you have to deal with 
internally with each other and the easiest. I want the hardest 
and the easiest. And I'm not looking for long answers again. 
And if you don't know--Mr. Speaker, just because I think we 
give Mr. Talabany a good opportunity to perfect his answer 
while the rest of you speak, I'm going to go in reverse order 
and start and end with our sitting member of the parliament. 
Mr. Talabany.
    Mr. Talabany. Mr. Chairman, thank you.
    It really is difficult to highlight one of these issues----
    Mr. Shays. Give me two of them.
    Mr. Talabany. --as more important. I think they're all 
important. You cannot have reconciliation without having a 
viable oil policy, without getting the citizens of the country 
to understand the importance and the significance of 
federalism, without having a reconstruction----
    Mr. Shays. Fair enough. Which will be the most difficult to 
resolve then? I'll take that one.
    Mr. Talabany. I think the militia issue will be one of the 
most difficult to resolve because this is dealing with armed 
units, where sometimes it's not as easy to sit down at a table 
with and come up with a diplomatic and peaceful solution to, 
and I think it is addressing the militia issue that is 
ultimately going to lead to more bloodshed before we ultimately 
come up with a solution to this problem.
    Mr. Shays. OK. Mr. AlMusawi.
    Mr. AlMusawi. Federalism could be----
    Mr. Shays. Which is? I'm sorry.
    Mr. AlMusawi. Federalism. Federalism. Federalism. Yeah. 
It's one of the crucial issues that maybe make some troubles, 
maybe, in the coming days. Maybe next week we will see some 
also talks in the Council of Representatives. About the 21st of 
this month should be the second reading of the proposal, of the 
federalism proposal.
    Mr. Shays. Let me just go quickly back to you, Mr. 
Talabany. You didn't tell me the easiest thing to resolve.
    Mr. Talabany. Unfortunately, sir, in Iraq, nothing is easy.
    Mr. Shays. Tell me, Mr. AlMusawi.
    Mr. AlMusawi. Maybe I could say that the oil revenues is 
the easiest one because all the Iraqis agree to distribute the 
Iraqi wealth fairly among them.
    Mr. Shays. Thank you. Mr. Speaker.
    Dr. Al-Hasani. I think it's a package deal. It's very 
difficult to say which one is more difficult and which one is 
much easier. Although I probably think the federalism is going 
to be one of the top issues, the nature of federalism. Nobody 
has problem with Kurdistan region, so my fellow Kurdish 
president, he has not to worry about that. We have problem in 
our----
    Mr. Shays. You just want a safe place to visit.
    Dr. Al-Hasani. Yeah, but I think, you know, federalism is--
and then militia issue are the biggest problem, but it has to 
be a package deal on all these things.
    We need to fast form the committee to revise the 
constitution. It is like what happened in United States. The 
constitution you have in the United States is not the original 
constitution. You differed on that constitution, and then you 
had a committee, you know, revise the constitution, and you 
have this constitution. The same thing should happen in Iraq. 
We should reach a deal on the constitution which has to do with 
how the future state of Iraq should look like.
    Mr. Shays. Yes, sir. Go ahead.
    Mr. AlMusawi. Federalism--actually, we have in Iraq--we 
have to have one governing style in Iraq. We shouldn't say 
Kurdistan should have federalism and the rest of Iraq 
shouldn't. We should have one federalism. We should have one 
flag. We should have one so Iraq should be one state. So, 
within Iraq, we should have one governing style.
    Mr. Shays. Bunker Hunt, obviously a very successful oilman 
and comes from a pretty distinguished family in that area, came 
into my office and spread out a huge map of Iraq. He showed us 
all the areas where there was oil now, and then he showed me 
all the areas where there was potential oil. He said that when 
he looks at this map as an oilman, he says Iraq is awash with 
oil, and there are areas that have not been yet developed or 
investigated. But he says, on a scale of 1 to 10, the 
likelihood of finding oil is there. He said--and I said, well, 
Iraq has 10 percent of the world's oil and Saudi Arabia, you 
know, 20 to 25 percent, and his opinion was that Iraq has far 
more than 10 percent of the world's oil.
    But he said and it wasn't just in a Shia area or the 
Kurdish area. It was all around. Tell me what the ultimate 
agreement you all think will be with oil, if that is the 
easiest to resolve. What do you think will it ultimately be? If 
you were to estimate, and I'll start with you this time, Mr. 
Al-Hasani.
    Dr. Al-Hasani. Mr. Chairman, take all the oil and give us 
peace. Oil, it's a problem in Iraq.
    Mr. Shays. I just want to say when you say take, you don't 
mean foreigners take. In other words, among the area.
    Dr. Al-Hasani. Whoever wants to take the oil, let them take 
it. Peace is more important.
    Mr. Shays. But don't you agree that oil is one way to give 
peace?
    Dr. Al-Hasani. Let me be realistic about it. I think oil 
should be controlled by the Federal Government and distributed 
equally among Iraqi population.
    Mr. Shays. Mr. AlMusawi.
    Mr. AlMusawi. That is what the Constitution was saying, the 
oil should be in the control of the Federal or the central 
government. So there is no big deal. I don't think we in the 
south, there is a huge amount of oil in the south. This is not 
for the Shia, for example. This is for all Iraq. This is for 
Sunnis, for all Iraqis. We shouldn't concern about oil. Oil for 
all Iraqis.
    Mr. Shays. Mr. Talabany.
    Mr. Talabany. History is instructive and we need to have 
systems in place in the country that can ensure that each and 
every Iraqi citizen--the way, Kurdish, Shia or Sunni benefits 
from the Nation's oil to this date it is--it has not been the 
state. Iraq has failed as a state to deliver its natural wealth 
proportionally and equitably throughout the country and people 
are insecure. It comes back to Iraq being a failed state, its 
inception. We need to address these insecurities and 
constitutions alone cannot do. We need actions and executions 
and checks and balances to do it in order to do so.
    Mr. Shays. Let me say this. My 10 minutes have ended and I 
know we have a panel that thought that it would be starting at 
10 o'clock. We told them that there would be another panel that 
we had continued. But I feel we need to move on. I would like 
you all to just end with maybe, if any brief comment you want 
to make, and then we will get on to our next panel. Is there 
anything we should have asked you that we didn't, and then we 
will get on with our next panel. And Mr. Speaker, we allow the 
speaker to go first but usually the speaker is the closer in 
our Chamber. So we are going to let you be the closer to Mr. 
Talabany. We are going to have you go first.
    Mr. Talabany. Mr. Chairman and distinguished Members of 
Congress, again we would like to thank you for putting this 
panel together. I think the one thing that if we can ask or 
request of you is that while we understand that this debate 
that is going on in this country is a valid debate and that 
clearly there are divisions in how you all see what is going on 
in Iraq, it is important and critical for us that this debate 
in this division not be translated as a wavering of your 
commitment to seeing the project through in Iraq and ensuring a 
viable state emerges from the ashes of tyranny in Iraq, and 
that is all I have to say.
    Mr. Shays. Thank you very much.
    Mr. AlMusawi. I think this is a very healthy debate about 
the Iraqi issues and I would insist on the cooperation between 
Americans and Iraqis to achieve the mutual goal of 
democratizing Iraq and stabilizing Iraq. We appreciate the help 
of Americans to liberate Iraqis there. There is no question 
about it. Most Iraqis have admitted that Americans did a great 
job for Iraq. Thank you.
    Mr. Shays. Thank you. Mr. Speaker.
    Dr. Al-Hasani. Well, let me thank you, Mr. Chairman, and 
thank all of the members of the committee for inviting us here 
to exchange information, ideas about, you know, how we can fix 
the problem of Iraq. I wish just to say that please don't make 
Iraq's issue an election issue. Don't hurt us, you know. I 
think we are in this thing together. It is a nation building in 
Iraq. It is--we are building new states. It is, you know, we 
are in transitional period. It is very--this transitional 
period is difficult period. We've got to understand that. And 
we need to work together as partners to bring Iraq back to the 
international community and to bring peace to Iraq and its 
origin and spread democracy in Iraq. I wouldn't say any place 
else. I want to have democracy in Iraq because I think that is 
the future of Iraq. And that is the future of the United States 
in the region. Thank you very much.
    Mr. Shays. Thank you very much. I am going to just conclude 
by saying that in my visits to Iraq I leave in awe of what the 
Iraqi people are trying to do. Sunni, Shia, Kurds and others. 
And I feel that I'm in the presence of great men and women and 
I'll just end with a gentleman that I have come to know and 
love, Mr. Al-Alousi, who decided to go to Israel and when he 
came back, all of his security was taken from him. And after 
the first election, there was a second attempt to kill him. 
They didn't kill him. They killed his two sons. And he was 
visiting with me 2 or 3 months later and I said to him you 
can't go back. You need to stay in this country. And I will do 
everything I can to have you stay and be safe because he is a 
marked man. And he looked at me in horror that I would suggest 
such a thing. And he said my country needs me. And he's now 
part of your national assembly. He's now part of, I believe, of 
your council of representatives.
    When I met with him in my last visit, I was in his home. He 
had no pictures of his family on the walls and I said could I 
see a picture of your two sons. And he brought out this picture 
that wasn't in a frame and two beautiful young men taller than 
him and he had his shoulder, his head on the shoulder of one of 
his children and then he said to me my wife can't--doesn't 
allow me to keep this picture open because she can't bear to 
look at it. And I recognize that every one of you in a sense is 
a marked person because you want a country under democracy and 
I know you do want to find common ground. My prayers are with 
you each and every day, and I can't tell you how grateful I am 
that you have come here today. I am so grateful.
    We are going to have a 2-minute recess and then we will 
start with our next panel.
    Thank you.
    Mr. Shays. I want to announce our second panel and tell 
each of them directly that I'm very grateful for your patience 
and am extremely grateful for your participation. I have been 
looking forward so much to this panel. I think I am going to 
learn a lot.
    We have Dr. Fouad Ajami, Director of Middle East Studies, 
School of Advanced International Studies, John Hopkins; Dr. Jim 
Fearon, Gabelle professor in the School of Humanities and 
Social Sciences and Professor of Political Science, Stanford 
University. We have Ambassador Peter Galbraith, Senior 
Diplomatic Fellow, Center for Arms Control and Nuclear Non-
Proliferation, former U.S. Ambassador to Croatia.
    I'll just note, Ambassador, that you as well have a famous 
father who I appreciated getting to interact on occasion and 
you happen to be sitting in the same seat where Mr. Talabany 
sat with his famous father. So I thank you all three of you for 
being here. I think you know we do swear in our witnesses and 
the only one in my 10 years of chairing a committee, this 
committee, we didn't swear in was the senior Senator from West 
Virginia. I chickened out, but I am not chickening out with you 
gentlemen.
    If you'll stand. I'll swear you in.
    [Witnesses sworn.]
    Mr. Shays. I'll note for the record all three of you have 
responded in the affirmative. What we are going to do is we are 
going to do 5 minutes and roll over for 5 minutes if we need 
to. We would like you to not be more than 10. But we really 
need to hear from you, and Dr. Ajami, I just want to say that I 
didn't know you a number of years ago, and I heard you speak 
before the Aspen Group for breakfast and it was one of the most 
impressive meetings that I have had. I called up my wife 
afterwards and said I was there for an hour and I learned every 
minute this gentleman spoke. I consider you a tremendous gift. 
And I don't know our two other witnesses all that well, but 
I'll never forget that day when I had the opportunity to hear 
from you. Thank you so much for being here, all three of you.
    Ambassador Galbraith. Thank you, Mr. Chairman.

STATEMENTS OF DR. FOUAD AJAMI, DIRECTOR OF MIDDLE EAST STUDIES, 
    SCHOOL OF ADVANCED INTERNATIONAL STUDIES, JOHNS HOPKINS 
UNIVERSITY; DR. JIM FEARON, GABELLE PROFESSOR IN THE SCHOOL OF 
   HUMANITIES AND SOCIAL SCIENCE, AND PROFESSOR OF POLITICAL 
   SCIENCE, STANFORD UNIVERSITY; AMBASSADOR PETER GALBRAITH, 
 SENIOR DIPLOMATIC FELLOW, CENTER FOR ARMS CONTROL AND NUCLEAR 
      NON-PROLIFERATION, FORMER U.S. AMBASSADOR TO CROATIA

                  STATEMENT OF DR. FOUAD AJAMI

    Dr. Ajami. Thank you, Mr. Chairman. It is a great honor to 
be here and I think in the exchange that preceded our panel I 
learned a lot from all four of you and any time you have some 
free time on your hands, you are definitely welcome to go down 
the hill to Johns Hopkins and meet with my students. Since 
those of you, you can't get paid, we will have free lecturing 
from you.
    It is really a great privilege to be here. And I think 
Congressman Shays, I think it is hard to bring something new to 
you about Iraq. You have been in and out of that country for so 
many times. You have invested so much of your energy and your 
effort in that, in the great project in Iraq, driven in my 
belief by the most decent of motives, which is success for our 
country in Iraq and deliverance for the Iraqis and the same is 
true of all of your colleagues. I am--even the fact that you 
are on the ballot in Connecticut and Senator Lieberman is on 
the ballot, I regret being a voter in New York. I would have 
loved to cast my ballot for both of you.
    Per your guidelines my assignment is really going to be in 
fact to just say something about the meaning of Iraq to the 
region around Iraq. The regional setting, if you will, of Iraq 
warrants the regional consequences of the decisions we will 
make in Iraq in the term to come.
    For me, one way of highlighting the meaning and 
implications of this project in Iraq is a remark made by the 
mayor of Baghdad on the eve of the country's first national 
election of January 3, 2005, and the quotation is memorable, 
that particular quotation is memorable. The rulers of the 
region, he said, are nervous. The people of the region are 
envious. Now there is no denying of course that was a more 
hopeful time. And it is fair to ask as we must ask that 
question periodically are the rulers of the region around Iraq 
still nervous and are the neighboring populations envious of 
the Iraqis or have the populations come to a different kind of 
conclusion about the play of things in Iraq?
    The answer to this question is quite complex, and I would 
love to take it up in the question and answer with the 
distinguished members of the subcommittee, and just to focus on 
the question that you have put before us. And you, the panel, 
sharpened this question. As you and your colleagues weigh the 
consequences of withdrawal versus the consequences of staying 
on, it should be conceded that no one can say with confidence 
how long the American body politic will tolerate the expense in 
blood and pressure incurred in Iraq. It will be safe to say 
that this President will stay with this war, that this burden 
is likely to be passed on to his successor. But the Iraqis are 
approaching reckoning time for America's leaders are under 
pressure to force the pace, and I heard this from all four of 
you today.
    The political process here at home in the United States is 
not likely to impose a precise deadline for American 
withdrawal. But the Iraqis should not be lulled into 
complacency, for the political process is more likely to draw 
parameters on this commitment in Iraq, limits of tolerance, 
limits of tolerance, and I think supporters and opponents of 
this war will have to concede that we are reaching these limits 
of tolerance on Iraq.
    No great commitment can be abandoned without commensurate 
costs. It has to be understood. History works its will in 
unpredictable ways. This American debacle, for example, in 
Vietnam it should be recalled some 3 decades ago issued in the 
most unexpected of outcomes. That domino in Vietnam fell. There 
was horror in Cambodia but in fact the peace in Asia held. So 
the battle for Vietnam was lost but the wider war for the 
future of Asia was won. It is unlikely--and this is in thinking 
about, if you will, a comparison between Iraq and Vietnam 
because we are prone to make that kind of comparison. It is 
unlikely that the freedom in Iraq will be as forgiving as the 
freedom in Vietnam was because this region, the Arab-Islamic 
world differs from East Asia. The doctrines of radicalism are 
stronger in Iraq's neighborhood. There is no Japan-like power 
that will anchor peaceful change and provide help that success 
can stick on Muslim lands in the manner that Japan did in its 
own Asian worlds. We needn't give credence to the assertion of 
President Bush that the jihadists will turn up in our cities if 
we pull up stakes in Baghdad to recognize that the terrible 
price will be paid will be to opt for a hasty and unseemly 
withdrawal from Iraq. This is a region with a keen and 
unmerciful eye for the weakness of strangers. They watch 
strangers and they can see when strangers blink. Iraq may have 
tested our patience and been a disappointment to many who 
signed up for an easier campaign. We did not always possess the 
skills of imperial rule nor did we have an eye for the cunning 
and ambiguities of Arab-Iranian ways, but the heated debates 
about the origins of our drive into Iraq would surely pale by 
comparison to the debate that would erupt were we to give in to 
pessimism and despair and to cast Iraqis adrift.
    The Arab-Muslim land has proven quite difficult to reform 
but look again at the spectacle, if you will, in the region 
around Iraq and look what we have been able to do in this 
region in the last several years. Hezbollah notwithstanding, 
Lebanon has found its way out of the Syrian captivity. I know 
that now because of the troubles of the Cedar revolution it has 
become fashionable to say we should invite the Syrians back 
into Lebanon but we should do nothing of the sort because at 
that time Lebanon freedom is worthwhile Egyptians had come to 
question the Pharaonic system, because if Congress would like 
to take up a very serious debate, we should take up the debate 
of what we get out of the investment we make in the Egyptian 
autocracy of Mubarak. The Saudis now own up to the deeds of the 
prophets and the sermons of their preachers, not as much as we 
like them to but more now than some years ago. Kadhafi struck a 
plea bargain, turned in his deadly technology and material in 
the aftermath of Saddam's fall. And anyone who thinks that 
Kadhafi would have made that concession without watching Saddam 
being flushed out of the spider hole and without watching the 
soldiers of David Petraeus kill the two sons and one grandson 
of Saddam Hussein, I think really would have to think again 
about that.
    We have not deterred every rogue in the region. We paid a 
high price in Iraq. We pay by the day and I know all of us are 
concerned about this. With our mission in Iraq, notice has been 
served that the Pax Americana are not free, that there are 
consequences for regimes that play with fire.
    I have summarized, Mr. Chairman, the statement that I have 
with me which I very much seek your permission to be included 
in the record, and I look forward to the exchange. I thought I 
would lead with these brief set of remarks.
    [The prepared statement of Dr. Ajami follows:]

    [GRAPHIC] [TIFF OMITTED] T9536.010
    
    [GRAPHIC] [TIFF OMITTED] T9536.011
    
    [GRAPHIC] [TIFF OMITTED] T9536.012
    
    [GRAPHIC] [TIFF OMITTED] T9536.013
    
    [GRAPHIC] [TIFF OMITTED] T9536.014
    
    [GRAPHIC] [TIFF OMITTED] T9536.015
    
    [GRAPHIC] [TIFF OMITTED] T9536.016
    
    [GRAPHIC] [TIFF OMITTED] T9536.017
    
    Mr. Shays. No. You woke me up. This is a continuation of a 
hearing. So we already have our unanimous consent in terms of 
opening up and making sure that we make that clear. And your 
statement will be in the record, any statement of the Members 
as well.
    Dr. Fearon. Thank you so much, Dr. Ajami.

                  STATEMENT OF DR. JIM FEARON

    Dr. Fearon. Thank you very much for giving me the 
opportunity to speak with you today about this important and 
quite intractable problem. I have been doing research and 
publishing articles on civil wars since the early 1990's. I 
can't claim specific expertise on Iraq although I have tried to 
follow this case closely over the last several years. What I 
think I can do that might be useful for the committee is to put 
the conflict in Iraq into some context provided by research on 
civil wars in general.
    Since my time is very short, I'll boil my written testimony 
down into three main points. First, by standards used by 
political scientists and others who study civil war and in my 
opinion by any reasonable definition, there is a civil war 
going on now in Iraq. The scale and extent of the civil war is 
somewhat limited by the U.S. military presence. I would be 
happy to get into the definitional issues with you in the 
question period if you wish, but to save time for more 
substantive stuff, I am going to skip over these now. Suffice 
to say, if we are willing to call conflicts in Algeria, 
Colombia, Guatemala, or Sri Lanka or Lebanon after 1975 civil 
wars, then we really ought to call this a civil war as well.
    The second set of points I want to make concerns how civil 
wars evolve, how they typically end and why. Civil wars usually 
last a long time. The median duration for civil wars that began 
since 1945 is about 7 years and the average duration has been a 
little more than 10 years. When they do end, civil wars 
typically end with decisive military victories. In at least 
three-quarters of the cases since 1945 either the government 
crushes the rebels or the rebels take over the government. By 
contrast, successful power sharing agreements to end civil wars 
have occurred far less often, and at best I would say 17 
percent of the cases or at about one in six and I would say 
that is actually kind of a generous coding of what a power 
sharing agreement is.
    Mr. Shays. Could you make that statement again? You are 
speaking so quickly.
    Dr. Fearon. So when civil wars end they usually end with 
decisive military victories and that would be about three-
quarters of the civil wars that started since 1945. So either 
in those cases the government crushes the rebels or the rebels 
take over the government. On the other hand, successful power 
sharing agreements to end civil wars are much more rare and 
have occurred by my reckoning in at best 17 percent of the 
cases since 1945 or about one in 6, and I would say that is 
actually a somewhat generous reading of what a power sharing 
agreement is.
    In other words, in some of those cases it really looked 
like one side basically won and offered some concessions to, 
you know minor concessions.
    Why are power sharing agreements so unusual, successful 
ones? It is definitely not for lack of trying. Combatants in 
civil wars often try to negotiate them but they usually fail. 
They tend to fail because once the parties to a conflict are 
organized for violence, it is extremely difficult for them to 
trust that the other side will observe the terms of a written 
agreement such as a constitution that tries to share power by 
dividing up control of political offices, tax or oil revenues 
or the state's military. Basically each side knows that the 
other will be tempted to use force to grab power or change the 
deal. Mutual fears and temptations for power then create a 
self-fulfilling prophecy of violence. When power sharing 
agreements have succeeded in ending civil wars, it has usually 
been after years of intense fighting that has clarified that 
neither side can win outright. And it is required that the 
combatants not be internally fractionalized. Otherwise if they 
are highly fractionalized, you can't trust that the other side 
would be--even be able to stick to a deal if you managed to 
reach one at the table.
    Iraq does not satisfy these conditions. The parties are 
highly fractionalized and they have not fought to a stalemate, 
something the U.S. troops essentially prevents.
    My third and final point is that this historical record on 
how civil war ends suggests unfortunately that in terms of 
achieving a peaceful democratic Iraq whose government can stand 
on its own, it probably doesn't matter much whether U.S. troops 
stay in Iraq for 1 more year, 5 more years or even 10 more 
years. Foreign troops can enforce power sharing and limit 
violence while they are present, but once we go, lack of trust, 
factionalization and the fact that lots of the players are 
organized for violent conflict means that the deals we backed 
are likely to fall apart as groups scramble for power and 
security.
    Think of Bosnia where there is still an international 
sovereign guaranteeing power sharing more than 10 years after 
the war ended. And in that case as compared to Iraq the 
combatants had already fought to a stalemate when the agreement 
was struck in 1995, and they were not highly fractionalized 
internally.
    Or think of Afghanistan now. Very hard to imagine that 
removal of NATO and U.S. troops would not lead to rapid 
escalation of the civil war and disintegration of the current 
political order. Iraq is likely to be a much harder and more 
costly case on this score than Bosnia and certainly no easier 
than Afghanistan.
    In short, I think the administration core political 
strategy, the strategy for victory as well as the common 
argument these days that saving the Iraq mission requires that 
we get them to renegotiate the Constitution or otherwise get a 
fair deal on the sharing of oil revenues are both fundamentally 
unrealistic. Staying the course and even ramping up by 
increasing our troop presence are delay tactics rather than 
strategies likely to achieve the goal of a democratic Iraq that 
can stand on its own.
    So what can be done at this point? Rapid withdrawal of the 
U.S. force I think would be a big mistake. Rapid withdrawal 
would pretty clearly lead, as Mr. Chairman, you suggested in 
your opening remarks, to a rapid escalation of Sunni, Shia 
militia conflict in Baghdad and some other cities and to levels 
of killing of civilians far higher than the current rates that 
are already dreadfully high.
    Rapid withdrawal could also lead to an intra-Shiite war 
between militias loosely affiliated with Muqtada al-Sadr, the 
Badr Brigades and possibly some other Shiite militia grouping. 
Rapid withdrawal would also allow the organization that's known 
in English as al-Qaeda in Iraq to take fuller control in Anbar 
and the other Sunni majority provinces than it already has, 
which is fairly extensive, it seems. If mishandled, this can 
become a zone for exporting terrorist attacks within the 
region, possibly the world.
    I think these considerations all point to gradual 
redeployment and repositioning of our forces within the regime 
as a better option by gradual--I mean roughly say 18 months to 
3 years depending on how the conflict evolves. It would be very 
much needed to be keyed to events as they develop. Gradual 
redeployment would allow more gradual and less explosively 
violent sorting of Sunnis and Shias out of mixed neighborhoods 
and would lessen the risks of an intra-Shiite war resulting 
from an all out power grab by one or another Shiite faction. 
Intelligently pursued, gradual redeployment could allow us to 
influence the evolution of what I imagine will be a Lebanon-
like conflict in Iraq in a way that minimizes the risk from al-
Qaeda in Iraq and prevent any wholesale takeover of the country 
by Iran which I think at any rate is extremely unlikely.
    In sum, we should not completely give up on the prospect 
that Iraqi political leaders will manage to make deals and 
provide service in such a way as to gain peace and security for 
the country as a whole, but we should make it clear at least 
privately that their time to do so is limited. In the interim, 
we need to plan for the possibility that a democratic Iraq that 
can stand on its own is not going to take root while we are 
there. This means planning to put ourselves in the best 
position to influence for the good the evolution of a civil 
conflict that only the Iraqis have an ability to end at this 
point.
    [The prepared statement of Dr. Fearon follows:]

    [GRAPHIC] [TIFF OMITTED] T9536.018
    
    [GRAPHIC] [TIFF OMITTED] T9536.019
    
    [GRAPHIC] [TIFF OMITTED] T9536.020
    
    [GRAPHIC] [TIFF OMITTED] T9536.021
    
    [GRAPHIC] [TIFF OMITTED] T9536.022
    
    [GRAPHIC] [TIFF OMITTED] T9536.023
    
    [GRAPHIC] [TIFF OMITTED] T9536.024
    
    [GRAPHIC] [TIFF OMITTED] T9536.025
    
    [GRAPHIC] [TIFF OMITTED] T9536.026
    
    [GRAPHIC] [TIFF OMITTED] T9536.027
    
    [GRAPHIC] [TIFF OMITTED] T9536.028
    
    [GRAPHIC] [TIFF OMITTED] T9536.029
    
    Mr. Shays. Thank you very much, Dr. Fearon.
    Ambassador, you have the floor. Thank you.

            STATEMENT OF AMBASSADOR PETER GALBRAITH

    Ambassador Galbraith. Mr. Chairman, members of the 
subcommittee, thank you for the opportunity of testifying 
before you this afternoon.
    Mr. Chairman, the dire consequences of withdrawal that you 
described earlier today have in fact already taken place 
without there being a withdrawal. That is to say, there is a 
civil war. Iran is the dominant power and terrorists already 
have a base from which they operate and in fact have gained 
strength.
    Further, the solution that has been discussed at great 
length today, which is the will of the Iraqi government, is in 
my view largely irrelevant.
    Iraq's government of national unity does not represent a 
single nation. It is not unified but, most importantly, it 
doesn't govern anything. Iraq's south is governed by Shiite 
religious parties, not the government in Baghdad, who run the 
region as theocratic fiefdoms with elements borrowed from the 
Iranian model.
    In Iraq, however, the Shiite militias enforce a form of 
Islamic rule that is more severe than that which exists in 
neighboring Iran. The Sunni center is a battleground and we 
have already discussed today the report about the largest and 
most Sunni province, Anbar. Baghdad is the front line of a 
brutal civil war between the Sunnis and the Shiites that is on 
average taking 100 lives a day. The city is divided between a 
Shia east which is controlled by the most radical of the Shiite 
militias, Mahdi Army, and the Sunni west which is under the 
control of al-Qaeda, its offshoots and former Baathists. 
Government ministers rarely risk going to their ministries 
outside the Green Zone and most of them spend their time 
visiting each other designing policies that in fact never leave 
the paper on which they are written.
    Kurdistan in the north is for all practical purposes an 
independent country. It has its own democratically elected 
parliament, president, prime minister and cabinet. The 
Kurdistan regional government has its army, the peshmerga, the 
exclusive power of taxation within Kurdistan and full control 
over all natural resources in the territory of Kurdistan, 
including oil and water, and as we speak the Kurdistan 
parliament is considering a Kurdistan law on the exportation of 
petroleum in Kurdistan.
    The Iraqi army is banned from Kurdistan except with the 
approval of the Kurdistan National Assembly and, as has already 
been discussed, the Iraq flag does not fly in Kurdistan. 
Further in January 2005, 98 percent of the Kurds participating 
in a formal referendum, which was virtually everybody 
participating in the regular elections, voted for an 
independent Kurdistan, 2 percent voted to remain in Iraq. 
Kurdistan's powers, as I described them, are recognized in the 
Iraqi Constitution, which makes Kurdistan law superior to Iraqi 
law except for the very few matters that are wholly within the 
jurisdiction of the Federal Government as defined in Article 
110 of the Constitution. These exclusive powers do not include 
human rights, natural resources, religion or taxation.
    The important point here is that the Constitution permits 
other parts of Iraq to form regions with the same powers as 
Kurdistan and, as you know, SCIRI is pushing to do precisely 
that to create a nine-government Shiite region that would have 
its own army and substantial control over the petroleum.
    Iraq's constitutional design with virtually independent 
regions and a powerless central government is no accident. It 
reflects the deep divisions within Iraq and resembles much more 
a peace treaty among at least two sovereignties that were the 
parties, the Kurds and the Shiites, and not a blueprint for a 
common state that is not desired by the Kurds and about which 
the Shiites are at best ambivalent. The Iraqi police and army 
who are key to our strategy for exit are also a reflection of a 
divided country. The army is divided into Kurdish, Sunni and 
Shiite battalions which are basically loyal to their own 
communities.
    According to Iraq's top defense ministry officials, a third 
of the army consists of ghost soldiers, names that are used to 
collect salaries and only about 10 percent actually show up for 
combat on given occasions. Iraq's police are participants in 
the civil war responsible for many of the abductions and 
killings. In my judgment, it is virtually impossible to build 
national institutions such as an army and a police when there 
is no nation.
    Let's face up to the reality. Iraq has broken up and is in 
the midst of a civil war. Recognizing this clarifies our policy 
options. To achieve President Bush's goal of a unified 
democratic Iraq, the United States would have to put Iraq back 
together again. This would require two military missions that 
we are not now undertaking. First, we would have to use force 
to disarm Shiite militias and dismantle the southern 
theocracies. Second, we would have to end the Sunni-Shiite 
civil war being fought in Baghdad and other mixed areas. The 
first task would involve taking on an enemy more numerous and 
better armed than the Sunni insurgents, an enemy with a 
powerful ally nextdoor, Iran. Ending the civil war would 
require U.S. troops to become the police in Baghdad and other 
mixed areas. It is not a task that the Iraqi security forces 
can undertake because they are either Shiite or Sunni and 
therefore partisans in the civil war.
    Either mission would mean many more troops than we have now 
and many more casualties.
    In fact, the United States is not committed to the unity of 
Iraq except in a rhetorical way. During the occupation, it was 
we who allowed the Shiite militias to grow from a few thousand 
to the number that exists now. And it was Ambassador Khalilzad 
last summer who brokered the provisions of the Iraqi 
Constitution that basically created powerful regions and a 
powerless central government. That then comes to our choice. If 
the United States is not prepared to build a unified Iraq and 
personally I see no reason to expand American lives and 
treasures to put back together a country that is not desired by 
a large part of its inhabitants, then the alternative is to 
work with the reality of a divided land.
    If we are not going to disarm the Shiite militias and 
dismantle the theocracies, what purpose is served by our 
presence in the south? It is true that if we withdraw, the 
south would be pro-Iranian and theocratic, but that is equally 
the case with our current mission. And if we are not going to 
help end the civil war, what purpose is served by continued 
military presence in Baghdad? It is true that if we withdraw, 
there will be horrific sectarian killing and widespread 
sectarian cleansing but that is going on right now.
    The current strategy for combating the insurgency has also 
clearly failed. It involves handing off combat duties to the 
Iraqi army. Mostly the Shiite battalions that fight in Sunni 
Arab areas as the Sunni unit are not reliable. The consequences 
of course the more we Iraqisize, the more opposition there is 
in Sunni areas. The alternative is to encourage the formation 
of a Sunni Arab region with its own army as allowed under 
Iraq's Constitution. At and upon its formation I would urge a 
U.S. military withdrawal so that the new Sunni authorities as 
they develop their own military are not seen as collaborators.
    Mr. Chairman, in my view, the United States is one 
overwhelming interest in Iraq today to keep al-Qaeda from 
having a base from which it can attack the United States and 
the West. If the Sunni Arabs can not provide for their own 
security, then the United States must be prepared to reengage. 
And this in my view is best accomplished by placing a small 
over the horizon force in pro-American Kurdistan. It would 
discharge a moral debt to people who were our allies and it 
would enable us to move rapidly back into the Sunni areas with 
a powerful ally, the Kurdistan army, the Peshmerga, who are the 
most significant militarily capable force within Iraq.
    The choices are stark. We can try to win as defined by 
President Bush, but that would require more resources than the 
President or I believe the Congress is prepared to commit. Or 
we can reshape the mission in Iraq to the resources we are 
prepared to commit. I think I have outlined a three-part 
program that is achievable: Withdraw from parts of Iraq where 
we will accomplish nothing, focus on the threat from al-Qaeda 
and other salafi jihadis, and support our friends.
    Thank you.
    [The prepared statement of Ambassador Galbraith follows:]

    [GRAPHIC] [TIFF OMITTED] T9536.030
    
    [GRAPHIC] [TIFF OMITTED] T9536.031
    
    [GRAPHIC] [TIFF OMITTED] T9536.032
    
    [GRAPHIC] [TIFF OMITTED] T9536.033
    
    Mr. Shays. Thank you, all three of you, for your very, very 
helpful testimony and it is very provocative. So you give us a 
tremendous opportunity to have some very interesting dialog.
    I know that Mr. Kucinich needs to get on his way fairly 
soon and our colleague from Massachusetts just wanted to 
explain that he's visiting with some of his constituents who 
have been injured in Iraq and Afghanistan and so he's visiting 
the hospital.
    Mr. Kucinich, you have the floor.
    Mr. Kucinich. Thank you very much, Mr. Chairman, and before 
I ask a few questions I just want to once again thank you for 
creating a forum on one of the most crucial issues of our time 
and I must say that you know you have created these forums in a 
Congress which has not been particularly hospitable to these 
kind of discussions. And you have done it at some political 
risk and I think that needs to be acknowledged and that needs 
to be appreciated.
    Thank you.
    I want to ask Ambassador Galbraith, you made a point of 
saying something I think was extremely important. You said that 
there is large number of Iraqis, including Kurds, all the Kurds 
you said, who do not want a unified country. Under those 
circumstances, would U.S. presence with the intention of 
forcing a unified country be in effect a prescription for 
endless war?
    Ambassador Galbraith. Yes.
    Mr. Kucinich. Thank you. To Mr. Fearon, are we in a civil 
nuclear in Iraq right now?
    Dr. Fearon. Yes, I would say by pretty much any reasonable 
definition there is a civil war going on and I would say it's 
been going on for a couple of years now.
    Mr. Kucinich. If we stay will the civil war continue?
    Dr. Fearon. Yes, at a lower level than it would if we were 
to precipitously withdraw.
    Mr. Kucinich. If we leave, it will continue?
    Dr. Fearon. Yes. It will escalate, I would expect.
    Mr. Kucinich. It will continue whether we stay or whether 
we go?
    Dr. Fearon. Yeah. I think the question is at what level and 
what would it exactly look like.
    Mr. Kucinich. If the United States stays in Iraq based on 
your study of civil wars and how long they last, would you want 
to make a prediction as to how long this war could go on?
    Dr. Fearon. Well, it depends on our policies. In principle, 
if we went up to half a million troops or something, that is 
not going to happen, and undertook an incredibly ambitious 
campaign to kind of take back ground that's been lost, we could 
get some level of peace and quiet. The main point of my 
testimony was that I think that even if you did that, it 
wouldn't lead to a situation where we could leave without it 
returning to a high probability of violence like we see now or 
something worse.
    Mr. Kucinich. So you are saying that whether we are there 
for 6 months or 6 years we are still looking at a level of 
violence occurring once we leave.
    Dr. Fearon. Yes. I think that the basic problem that power 
sharing agreements, we--while we are there we can help people 
keep to it and not fear that the other side will try to take 
over everything, but when we leave that will fall apart and 
that is why we are basically stuck in the same kind of 
situation in Afghanistan and why Bosnia still 10 years later, 
although as I said, I think that is a much easier and less 
costly case for various reasons than Iraq, which is still 
basically not a sovereign state.
    Mr. Kucinich. I have to say that each member of the panel 
has very important testimony, and I am hopeful that this 
hearing is going to get wide publication.
    You have said, Mr. Fearon, that civil wars typically last a 
long time with the average duration of post-1945 civil wars 
being over a decade. You have said that we are in a civil war 
in Iraq right now and have been for a few years. So would it be 
fair so say that if the United States continues with the 
intention of trying to monitor the civil war that we could be 
there at least another 10 years?
    Dr. Fearon. I think that if the goal is as stated, that we 
will stay there until we can leave and have a high expectation 
that the government will survive and not fall apart into 
internal war or higher levels of conflict, I think we need to 
be there for many, many, many years and you have to--so what 
was the strategy in Bosnia? The strategy in Bosnia was to 
basically have, you know, an office of the high representative, 
an international sovereign power as it were, backing the Dayton 
agreements and providing a kind of implicit threat that kept 
the parties from falling into squabbling over governance.
    Mr. Kucinich. And then there was Srebrenica.
    Dr. Fearon. I am talking about since the Dayton agreement 
since 1995. The theory was that by staying in a long time in 
this capacity economic reconstruction would occur and a set of 
new interests and institutions would develop that would tie 
people together and make it in their interest to keep the place 
together after the office of the high representative closes up, 
and that has actually been somewhat successful. It looks like 
this theory may ultimately work.
    You know it's been costly. I think you have to ask, you 
know, could such an approach work in Iraq and it seems to me 
the chances--it is a very different case in a bunch of ways and 
it is hard to imagine that it wouldn't be vastly more costly 
and very unlikely to succeed. The reason being that as long as 
we are there, we are going to be--our troops are there, they 
are going to be shot at and they are going to be attracting 
foreign fighters and attracting a lot of opposition. It's just 
going to be a vastly more costly proposition. It's not right 
next to the European Union, which has tons of enticements. I 
think it is pretty much an open-ended commitment if we keep 
with the goal that the administration has set.
    Mr. Kucinich. I am going to wrap this up, Mr. Chairman, and 
just say there is an intersection between what I have heard Dr. 
Fearon say and Ambassador Galbraith say and here it is in his 
written testimony. Dr. Fearon says that ramping up or staying 
the course had delay tactics, not a strategy for victory. The 
United States has three options in Iraq. Ramp up, increasing 
our military presence and activities; second, stay the course, 
that is adapt and win; or three, gradual redeployment and 
repositioning our force in the region so as to limit our cause 
while remaining to influence the conflict as it resolves. It 
goes on to say the analysis above suggests that none of these 
options, none of these options is likely to produce a peaceful 
democratic Iraq that can stand on its own after U.S. troops 
leave.
    And Ambassador Galbraith makes the case that there are 
forces that are pulling Iraq apart or will work against its 
unity whether we are there or not. Dr. Fearon makes the case 
that with the three options that are under discussion as of 
late, it is unlikely to produce a peaceful democratic Iraq that 
can stand on its own after our troops leave.
    So Mr. Chairman, without your involvement and initiation, 
we wouldn't even have had the opportunity to hear this kind of 
testimony. I thank you once again. I thank the witnesses. You 
have given us a lot to think about, and I am hopeful that the 
transcript of this hearing will be made available soon to other 
Members of Congress so this can be the basis for some deeper 
thinking about what our path needs to be. I want to thank all 
of the witnesses.
    Mr. Shays. Thank the gentleman. I'm going to yield myself 
10 minutes. We are going to do a second round. So we will go 
through this.
    I am wrestling with the testimony of all three of you 
because all three of you I agree with. So and it seems like a 
contradiction. I don't agree with every fact. Maybe I will 
after the panel is over.
    I want to ask you, Dr. Ajami, what is your reaction to the 
testimony of Dr. Fearon and Ambassador Galbraith?
    Dr. Ajami. Now Peter and I have books out at the same time, 
so but I wish his book well and I have great esteem for him as 
an analyst, and it was just a pleasure to meet Dr. Fearon and I 
think on Peter's point about how Peter sketched the landscape 
in Iraq, consider Iraq today. It has a Kurdish President, Jalal 
Talabani, who has brought the Kurds from, if you will, from 
Kurdistan to Baghdad. It has a very talented Deputy Prime 
Minister Barham Salih, a friend of all of us, I suspect. It has 
a Kurdish Foreign Minister. So when meetings with the legate 
out of state now take place, the man who represents Iraq is not 
an Arab but he's a Kurd. That is progress because indeed part 
of the debacle of Arab life has been the destruction of the 
pluralism of the region. That Arab nationalism insisted on this 
ethnic supremacy of the Arab's read on the ethnic supremacy of 
the Sunni Arabs and the Sunni will lead. We can talk about it 
at another time. There is also the Chief of Staff of the armed 
forces, again, comes from the Kurds. So the Kurds are well 
represented in Baghdad. And I don't think they want the 
independence that Ambassador Galbraith wants for them. I do 
know the man who was responsible for the referendum in 
Kurdistan Shirka Bacas who put a question to the Kurds who said 
would you want to live in independent Kurdistan or do you want 
to be part of Iraq. And emotionally and overwhelmingly the 
Kurds opted for a show of hands in favor of independence. But 
the Kurds know the world as it is, and the Kurds know that Iraq 
is a better bargain for them. I have talked to many, many 
Kurdish intellectuals and leaders, not as in as much depth as 
Peter. Peter knows the world of the Kurds with a great intimacy 
and great depth. The Kurds know this Iraq is the best deal that 
they can have against the designs of Turkey, against the 
designs of Iran, and against the designs of Syria.
    And then finally there is the issue of separating Kurdistan 
from its region and protecting it with American forces and 
wrapping it, if you will, with an American flag. I tell you 
civilization, Mr. Chairman, culturally for the Kurds, nothing 
could be worse. We are not going to do it. We will never do it. 
We will never choose Kurdistan and ditch the Arabs. Let's be 
realistic about it. It is a large Arab world. We will never 
ditch the Arab world and adopt a Kurdish state and we will 
never ditch the Turks.
    Now personally, I would rather ditch the Turks in favor of 
the Kurds. That is my own politics based on my own sense of how 
the Turks treated us in the prelude to the war. So I don't 
think we should wish for the Kurds what they themselves don't 
want and what they can't handle. Indeed, the Kurds have a place 
in Iraq. Iraq has become a binational state. It is a gift to 
the Kurds. It is a gift to the Iraqis. It is really also an 
example to the other Arabs, a message to the other Arabs to 
handle pluralism and to handle diversity. And finally we turn 
to the Shia, and it is a world I know with great dependence. I 
have written--you know, for the record I grew up in a Shia 
family in Lebanon, very secular. I have written a book about a 
man named Musa Sadr before the name al-Sadr and Muqtada became 
such a legendary name, and I am very interested in the place of 
the Shia Arab. If you take a look at the Shia, while Peter 
brushes them with the argument that they are all seeking 
theocracy, the nemesis is not theocracy. It's disorder. It's 
drift. It really is drift. And healthy debate has just broken 
out within the Shia community about the bid of Sayyid Abdulaziz 
al-Hakim for a big Shia federated region. And guess what 
happened. He was rejected and he was frustrated and fought by 
Muqtada al-Sadr, by the virtual party, by the Daawa Party and 
the Shia secularists. So oddly and as we are saying that the 
Iraqi Shia want out of Iraq and want to drift toward Iran. 
Indeed the Iraqi Shia being the majority population of the 
country are reconciled to being in Iraq and want Iraq to stay 
whole and intact and indeed Hakim's bid for this big superior 
region in which he would be the uncrowned king of that region 
did not work.
    My final point is that there is this kind of argument 
making the rounds. The Jordanians make it under the Shia 
crescent. The Egyptian President Hosni Mubarak says that the 
Shia Arabs are loyal to Iran, not to their government. This is 
really quite in my opinion a very pernicious doctrine. Wherever 
they are, the Shia are loyal to the land and where they live. 
The idea that this big Shia community of Iraq will somehow be 
drifting toward Iran, that Iran will be able to erase the Arab 
Persian divide, the linguistic divide, the philosophical divide 
between the Arabs and the Iranians is really quite in my 
opinion really a smear on the Shia Arabs.
    We are falling for the representations made to us by the 
Sunni rulers who are falling for these representations. I had 
the great honor of meeting Grand Ayatollah al-Sistani and he is 
of Iranian birth and if you go to Najaf and meet with the 
seminarians and the clerics in Najaf, what you hear from them 
behind closed doors and when you talk to many of them, they 
have no use for Iran's mullah factions. They have no use for 
the clerical state of the Iranians. So we should understand the 
Shias of Iraq are Arabs through and through. There is nothing 
that separates them, by the way, ethnically or linguistically, 
from the Sunni Arabs in Iraq. It just happened that they went 
to the market towns of Najaf and Karbala and they were 
converted to Shiism rather than to the Sunni doctrine. They are 
Arabs. They are Iraqis. There are deep philosophical and 
linguistic differences between the Iraqis and the Iranis, and 
many, many, many of the Iraqi exiles who spent time in Iran who 
have returned with a deep animus toward the Iranians with 
memories of the persecution by the Iranians with tales of 
Iranian puerilism toward them. And we talk a lot about how the 
Americans betrayed and abandoned the Shia and Kurdish 
rebellions in 1991. That was a disgraceful thing that we did, 
but guess who else did not come to the rescue of the Shia of 
the southern Iraq? The Iranians, nor did they allow Iraqis who 
were living in Iran to cross the border to fight with their 
kinsmen. So we should just be done with this idea that you know 
that Iran is going to run away with 25 million Iraqis, carry 
them and just put them in this big Persian imperium and make 
them clones of the Iranians. It isn't--it's ahistorical. It is 
not deep. It is not deep. This linguistic divide between Arab 
and Persian, this temperamental divide, this ethnic divide is 
very important and I think we should describe Iraq as the Kurds 
want to stay in Iraq not because they love Iraq. There is no 
other choice. The Shia want to stay in Iraq because they are 
the majority.
    The Sunnis, we can talk about them. They are supremacists, 
many of them. They ruled Iraq and for them Iraq is now a stolen 
country. We came and took it away from them and you know, I 
think they're coming to the recognition that their supremacy 
cannot be maintained and I think perhaps they are coming to 
their senses.
    Mr. Shays. Thank you. I am going to go to you, Mr. 
Galbraith, Ambassador Galbraith, because I do want to make sure 
that there is some response. But I want to ask you, Dr. Fearon, 
and it will probably be for my second questioning because I am 
going to try to stay 10 minutes and we can go back and forth 
with my colleague, Mr. Van Hollen. I am going to ask you where 
you found the most successful resolutions of civil war. I am 
going to ask you to tell me what I would have seen and say like 
South Africa and is there any--are there any areas where we can 
find some hope that while you are using the percentages, you 
know, where have we seen some successes and can we draw 
parallels or not. Because I happen to see some extraordinarily 
good faith efforts on the part of Iranians, or excuse me, 
Iraqis to sort out their differences.
    I just want to ask you, Dr. Ajami, to speak before I go to 
the Ambassador. Is the--does Iraq break up, so you have these 
three units, because I look at Baghdad and I look at other 
areas and I don't see it so clean and neat where you can just 
have these different, you know, a Shia, a Sunni and a Kurdish 
area.
    Dr. Ajami. Mr. Chairman, there is no clean breakup in Iraq, 
as you know. And I think the prospects would be the Iraqis will 
live unhappily together for quite some time. And again as a 
child of Lebanon and a student of Lebanon, there is something 
stubborn of our nation states: They persevere. They continue to 
exist because they are almost--usually they are just kind of a 
convenience. People can't find another form of life. And I 
think Iraq will continue in this fashion. And I think Baghdad 
itself, I mean, the great question would be what becomes of 
that city. And who would have it and would it be partitioned 
along sectarian and ethnic lines. It could be a catastrophe for 
the Iraqis. If that is the future they end up with then indeed 
this war would have been a terrible, terrible war. We've rolled 
history's dice and it would be that we lost, and the Iraqis 
lost.
    Mr. Shays. Mr. Galbraith, I am going to go to Mr. Van 
Hollen, but when I start my second round, this is the question 
that I'll ask: I would like you to speak to what you heard with 
Dr. Ajami. But also I would like you to speak to what I heard 
when I visited other nations in the region and I was lectured 
by other Arabs that Iran would not tolerate three separate 
states for more than one reason. The Kurdish area, obviously 
the Turks would have a challenge. The Syrians, I am told, and I 
would like your--I am told that Iran would have huge problems 
with the Kurdish state. But I am also told that the Iranians 
would have a hard time with a Shia Arab community given they 
also have a fairly large Arab Shia community in Iran, that they 
fear not just a Kurdish state but a Shia Arab state. And so 
I'll be coming to ask you to comment on that and anything else 
you would like to but, Mr. Van Hollen, you have the floor.
    Mr. Van Hollen. Thank you, Mr. Chairman. Let me thank all 
of you for your excellent testimony and just pick up, Mr. 
Ajami, where you left off, which is that if you see the outcome 
that you painted with a partition essentially that Iraq is 
lost, and of course the title of Mr. Galbraith's book is the 
End of Iraq. And I don't think he says it with any 
satisfaction. I think it's more a portrait of how he portrays 
the reality in the ground. In your statement, you say Iraq 
seems ungovernable. I think clearly the facts on the ground 
show that the situation is getting worse, not better. You quote 
the outgoing British Ambassador and said, just quote from your 
testimony, ``the prospect of a low intensity civil war and a de 
facti division of Iraq is probably more likely at this stage 
than a successful transition to a stable democracy,'' according 
to his government. So I mean, the issue we are all grappling 
with I guess is what really do the Iraqi people want because I 
think we would all agree that it is not what we all wish really 
for Iraq at this point. It is really a decision for the Iraqi 
people. And we heard the testimony of Mr. Talabany, and I agree 
with you that those who are part of the current government, 
that they do want a united Iraq. I think that is absolutely 
true. Mr. Talabany, Karim AlMusawi, others you mentioned, both 
Kurds, Sunni and Shia. The question really Mr. Galbraith has 
raised, are they really governing. What do they govern? Are 
really, are these other groups more in control of the future of 
Iraq than those who are in the government today? And if in fact 
Mr. Galbraith is right and Mr. Fearon is right, who I 
understood his testimony also we have a civil war, and the 
question as I understand his testimony is really quite how do 
you manage that to a position where you can reduce as much as 
possible the violence. But maybe at the end of the day I think 
you would agree that the result may also be some kind of de 
facto partition.
    So I guess the question for all of us, and, Mr. Ajami, I 
ask you, how do we know when we have reached the point where 
Iraq has fallen apart? Mr. Galbraith's testimony, as I say, he 
said well, we are now already at the point where we are 
fighting to put it back together, not holding it together. I 
understand from your testimony you think that we are still 
holding it together but it increasingly is falling apart. How 
do we know when we have reached that point?
    Dr. Ajami. I wish I knew the answer, Congressman Van 
Hollen. I think it's a very good question, and I think we 
understand that Iraq has been full of surprises and full of 
disappointment and full of heartbreak. I mean, we--and there is 
a question had we known then, if you will, what we now know, 
would we still have pulled the trigger in 2003. I really don't 
know the answer. I have written a book. I have spent these last 
3 years in and out of Iraq. I have and even Congressman Shays 
have forgotten, but we hung around on one trip with the 
incomparable General Petraeus when the chairman was there.
    We just--we are--all we roll history's dice and I have this 
very philosophical attitude about this war in Iraq, the Arabs 
have a word, which I like very much called Maktoob, 
``written.'' I think this war was written, was fated. Once 9/11 
happened, I can tell you it really, it is not an attempt to 
kind of claim now what I didn't think then. Immediately I knew 
that we would end up, we would go and I even had an expression, 
there was a highway that would lead from Kabul to Baghdad 
because I just understood that Kabul would not give us 
satisfaction for what happened to us on 9/11, that subliminally 
nations sometimes do things subliminally.
    We concluded that it was Arabs who attacked us and we were 
going to shoot Arab targets, and Saddam. He drew the short 
straw, and we wanted to take on Arab radicalism and we went 
from Kabul, which the Arabs had rented out for $20 million a 
year as we know. We went from Kabul to Baghdad to take a swipe 
as this Arab radicalism, to try to reform the Arab world.
    Was that the right place to make a stand against Arab 
radicalism? I don't know. Has it been frustrating in the 
extreme? Absolutely. Were there some real stakes in Iraq? I 
think so. I really think so. And one day, I very much would 
like to spend some time trying to explain at least my--not now 
because the time here is limited--my sense of how Iraq emerged 
out of 9/11. The Senate report, which I read very, very 
carefully, tries to establish and tries to question whether 
there is this link, if you will, between Saddam and 9/11 in 
kind of a Anglo Saxon way of inquiry, rules of evidence.
    That, I think, is doomed. You know, we don't need to spend 
time thinking. Did Mohammed Atta, the lead hijacker, meet with 
Iraqi intelligence? It is idle. I didn't really dwell on that.
    My concern was different. My concern was Arabs attacked us 
on 9/11, young Arabs who came right from the mainstream of Arab 
society, Saudis, Lebanese, Egyptians and that we tried, in some 
way, to go at this phenomenon, and Iraq was the place, this 
return address, if you will, that we chose. It might not have 
been perfect, but it gave us a place and gave us a kind of a 
battleground to take on the furies of the Arab world. It is not 
perfect.
    Mr. Van Hollen. Well, now, I appreciate the philosophical 
context from your own perspective that you just outlined. I 
guess I would clearly disagree that this was a fated decision. 
I think it was a very intentional decision that we didn't have 
to fall into through any kind of fate, and I would just point 
out, as you well know, that if the intention was to go after 
people who attacked us based on a form of Islamic extremism, 
that the one target, Saddam Hussein, would not be the 
appropriate target, because he was many bad things, and he was 
a brutal dictator, but one thing he was not was a purveyor of 
Islamic extremism.
    And let me just get back to my question of my panelists. 
Dr. Fearon, do you believe, as Mr. Galbraith does, and I 
understand--I think I read your testimony, you suggest we are 
in a civil war. You make that very clear. And where do you 
see--where do you see the end game of the civil war going?
    In other words do you think we have gotten to the point 
where the clear result of this will be some form of partition? 
We already have these internal migrations within Baghdad. I 
agree with the chairman and others. Baghdad is a city of 5 
million people, people of all different backgrounds, but 
unfortunately, given the violence, you are seeing this day-to-
day migration and a de facto separation on the ground.
    So I guess I would ask, with respect to you, Dr. Fearon, do 
you also see the end result of this civil war--and again based 
on your look at the situation in the former Yugoslavia, the 
Balkans, being some form of partition where the best the United 
States can do is to try and manage the--manage the violence so 
it doesn't spiral even more out of control as this partition 
happens?
    Dr. Fearon. Actually, no. I am very much against pushing 
for the United States to push for partition of Iraq. I think 
that is an absolutely terrible idea.
    I think it could happen over time that the Iraqis come to 
that. It is possible. I don't think it is necessarily the case 
that it is necessarily going to happen or somehow inevitable or 
fated by the fact that these are three natural distinct 
nations. I don't think that is true. But it could--you know, 
there are lots of ways things could play out, and that is one 
of the ways things could play out.
    But for us, to try and push this on them, first of all, I 
think it is none of our business. It is for them to decide.
    Second, I think it is abundantly evident that while, you 
know, almost all Kurds would, in some notion of their best 
possible world, have an independent state in the north there, 
this is not at all the case for Sunnis and Shias who say, over 
and over again, and you read it from reporting, good reporting 
by U.S. reporters, and if you talk, from talking to people who 
visit the region and know people there, they say we are Iraqis. 
And I think they believe that passionately that they disagree 
on what that implies about politics.
    So I think, you know, what is the problem with pushing this 
on them? Well for one thing--there is a number of problems. But 
one of them is that it would basically confirm--confirm very 
damaging conventional wisdom among Arabs in the region about to 
why things are going badly in Iraq. When I talk to people who 
talk to people in the streets around the Arab world or in Iraq 
and say, well, what do they think about what is going on and 
why are things going badly, their theory--and this may be 
surprising to you, us here--and their theory, a very common 
theory is that the United States is an incredibly powerful 
country.
    If things are going badly, it has to be because they want 
it to go badly. And why do they want it to go badly? Because 
they want to keep the Arabs down, they want to break us up, 
they are serving the interests of their Israeli masters. Now, 
that is crazy from our perspective, and especially the last 
part is just kind of nuts. But that is an extremely common 
perspective.
    If we go in and start pushing for partition, what will it 
do? It will just leave people to say, there, absolutely 
confirms what our theory was.
    Let me say, a tiny bit more about long run outcomes. I 
think the model here really shouldn't be--it is not Yugoslavia. 
It is much more. Lebanon, I think, is a much more appropriate 
historical analogy. And what we are likely to see pretty much, 
whether we stay or go, is a gradual or depending on how fast we 
go rapid transition to a Lebanon-like situation where you have 
basically a political authority insofar as its exists, devolves 
down to region, city, even neighborhood levels, there are lots 
of militias, there is at lot of fighting between militias off 
and on, a great deal of the fighting is not across sectarian 
lines but within it.
    It is important to remember about the Lebanese conflict 
there was a huge amount of fighting among the Christian 
militias and among the Muslim militias. There's going to be a 
ton of foreign intervention just like there was in Lebanon, 
that will periodically escalate they a lot, will help things 
de-escalate but I think we are looking at a long run conflict 
that will be quite messy. Hopefully, it will settle down to a 
fairly--not high intensity conflict for a long period of time.
    In the long run, is there a possibility of a stable Iraq? 
Yes, I think so. I think there is actually a basis there which 
is based on economic efficiency. There is common interests of 
all these people there in efficiently producing, controlling, 
and distributing and selling oil.
    I don't understand. Maybe Ambassador Galbraith can explain 
what is the Kurdish theory, if they were independent, what is 
the theory about how they are going to be able to profit from 
the oil if they have to export it across countries that can 
basically tax away their profits? It seems to me there is a 
very good interest in having an Iraqi central government to 
manage kind of efficient exploitation of the oil resources 
there.
    But how do you get there? What is the--the only kind of 
long-run stable basis for Iraq that I can see is that the 
Sunnis, and to some extent, the Kurds, recognize that there 
is--they need to make significant concessions on oil share, on 
revenue sharing, and in government to the Sunnis on the 
implicit recognition that if they don't, they are going to face 
a disabling long run insurgency that will make it hard for them 
to have peace and economic prosperity.
    But I just don't think we can get there quickly because 
there are all these Sunnis who believe, that have guns and 
believe they can take power if the United States leaves, and 
there are Shia leaders who think like Muktada al-Sadr, I 
believe, that they can grab power and the dictators, if the 
United States leaves, and it is very hard to disabuse them of 
those beliefs while we are there.
    Mr. Van Hollen. I think we got to the heart of the issue 
here, and I would welcome Ambassador Galbraith's response to 
that, because the fault lines in this hearing.
    Ambassador Galbraith. Thank you very much, and I think I 
will note that actually I, in addition to knowing something 
about Iraq, I actually also know something about Yugoslavia. 
And perhaps the best way to describe Iraq is the combination of 
Yugoslavia and Lebanon. Clearly, Kurdistan is a Slovenia, 
Croatia, Lithuania, Latvia, Estonia kind of situation.
    And I have great respect for Dr. Ajami. I reviewed his 
book, and--very favorably in the New York review of books.
    But I don't think it is--I don't think that one can justly 
dismiss a vote of 2 million Kurds, 98 percent voting for 
independence is meaningless sentimentality. Why are the Kurds 
given less credit than Croatians or Slovenians who voted on 
independence? I think they are serious about it.
    And the truth is, in more than a quarter century of 
visiting Kurdistan and knowing the Kurds, I have not met one 
who has told me that he would prefer to be--he or she would 
prefer to be part of Iraq if he had the option of an 
independent Kurdistan.
    And it is in my judgment--and I suppose this is my 
experience in Yugoslavia--that it is very hard to get people to 
commit to a state that they actually don't believe in. And it 
is not just that the Kurds don't want to be independent. It is 
that they positively hate Iraq.
    Now, Barham Salih, Jalal Talabani, Hoshir Sofali, wonderful 
close friends of mine of long standing. They are sincere. They 
are doing everything in their power to end the violence. At a 
level below that in Kurdistan, there is a lot of ambivalence 
because everything bad that happens in Iraq, is something that 
brings them closer to what they want, which is independence.
    And at a level below that, people don't even disguise their 
feelings. And it is very understandable. What has Iraq meant to 
Kurdistan? It has meant--not just Saddam Hussein, but 80 years 
of repression culminating in the genocide that you and I 
documented in the 1980's. That doesn't escape from peoples' 
memories, plus of course, you have had the 15 years of 
independence, and there is this growing confidence.
    Now, you can seek speak of Kurdistan of the Kurds are well 
represented in Baghdad. That is absolutely true.
    What are they doing in Baghdad? One of the things they are 
doing, it is not the only thing they are doing, but one of them 
is defending Kurdistan. And one of the things that they are 
defending is that the government in Baghdad should have 
absolutely no presence, no authority, in Kurdistan.
    So they are defending what they are doing--and it is a 
shrewd strategy--they are defending the current de facto 
independence of Kurdistan.
    That is not a reflection of a commitment to a unified Iraq. 
That is a reflection of a shrewd strategy. And what you also 
see from these leaders, is a shrewd strategy in the fact sense 
that they are not going to declare independence tomorrow and 
they have a public that understands that precisely for the 
reasons that Dr. Ajami has described.
    But we have to, when we look at the Kurdish situation, 
hasn't received a lot of attention because there have been 
fewer problems. There are all sorts of things that can change 
if this if you want to look ahead. Of course, there is a 
referendum on Kirkuk that is in the constitution. If that 
referendum somehow isn't held, you are going to see a different 
situation. There is the Saddam trial.
    Mr. Shays. Can you just explain, when you say different 
situation, I don't know what that means. You said if there 
isn't the election referendum, you said, different things, can 
you be for more specific?
    Ambassador Galbraith. Sure, I understand right now while 
there is this popular desire for independence, which I believe 
is every bit as strong as in Croatia, Slovenia, or any of these 
other countries that became independent, the leaders are not 
pushing for independence right now.
    But I am suggesting there are events that could trigger 
Kurdistan's independence.
    And I was just citing a couple of them, one of which would 
be if, for some reason, the referendum was not held in 
accordance to the constitution.
    Mr. Shays. So then your point was that then there would be 
a movement toward independence?
    Ambassador Galbraith. It could be. I am just giving an 
example. There was another example in today's paper which I 
think is brilliant. You have the judge in the Saddam trial 
saying--the judge in the trial of Saddam Hussein for the 
Kurdish genocide saying that Saddam Hussein was not a dictator.
    Now imagine a situation in which Saddam Hussein is a 
acquitted of the crimes against the Kurds and convicted of the 
crimes against the Shiites.
    These are the kinds of events that can take the next step, 
which is, I think, a question you have, had that can take it 
the next step, in a country where there is no shared identity 
as between Arabs and Kurds. Now I will readily agree that the 
situation in the, between the Sunni Arabs and the Shiites is 
different. There are elements of nationalism among the Shiites. 
But it is by no means the notion that is a parallel situation.
    Just a point about the oil because this is a--oh, 2 more 
points I want to make. First, I want to be clear. I do not 
believe the United States should push for the partition of 
Iraq.
    I am not an advocate of the partition of Iraq.
    I believe that Iraq has already broken up. And I am an 
opponent of putting it back together, of using, of sending 
American troops, American treasure, to try to do something that 
is in any event not desired by a significant part of the 
population. And I think that is a critical distinction. I could 
not agree with Dr. Fearon more that the United States should 
not be in the business of breaking up Iraq. But the fact is, 
this has happened. Kurdistan I have already described.
    You have this terrible civil war in Baghdad. If there were 
some feasible way to prevent it, I would urge--I would do it 
just as a humanitarian matter. But there isn't. And we are not 
doing it. And we can have--we can send a few more troops to 
Baghdad and it makes a temporary difference, especially if you 
turn out not to count the car bombings in the casualty tolls. 
But the fact is that if this sectarian violence comes back, we 
are not going to use our troops as policemen. It would require 
the kind of major foreign intervention such as Syria and 
Lebanon or NATO in Bosnia to bring this to an end. And it is 
not going to happen.
    So this division, including the division in Baghdad, 
between a Shiite east and a Sunni west and the ending of mixed 
areas that even the breakup of mixed marriages, is already 
happening. And nobody can be advocating that. But in the end, 
it is my judgment that a Shiite-governed region and a Sunni-
governed region perhaps in some kind of federation, is a better 
result than an endless power struggle between these two groups 
for domination.
    Oil is the other point worth commenting on.
    First, there are pipelines that go out of Iraq, and there 
are set tariffs so I don't think as a practical matter an 
independent, a land-locked independent Kurdistan would be able 
to export its oil. This is fairly standard. It is also likely 
that if Kurdistan were to become independent, it would be 
through a process of negotiation with the Arabs, many of whom, 
including one of the Arab panelists today, say bluntly, yes, I 
can understand why the Kurds want to be independent, and I 
think we should let them if that is what they want. So it is 
likely if there were an independent Kurdistan its best 
relationship would be with Arab Iraq.
    The issue of, as you know, the Iraqi constitution has a 
complicated formula on oil.
    Actually, technically, oil is not an exclusive power of the 
central Government, meaning that regional law applies and 
regional power both producing fields and new fields.
    But new fields are clearly under the control of the region. 
And this is why I can say that Kurdistan--all of Kurdistan's 
oil is controlled by Kurdistan because there are no existing 
fields if you exclude Kirkuk.
    But then there is the separate issue of revenue sharing to 
which the Iraqis have reached an agreement on revenue sharing 
with each of these--not a constitutional deal, which is not a 
good idea, but a law in which each region will get revenues 
from oil according to their population, if it, in fact, is 
implemented. It is very complicated.
    One of the complications is how much to the central 
government. After all, the Kurds would say nothing of our share 
because the central Government doesn't do anything in 
Kurdistan.
    But this is a complicated issue.
    But the second issue is, does the revenue sharing formula 
fix the problem for the Sunni Arabs? And there are people who 
believe, oh, yes if only they get their 20 percent the problem 
will be fixed. If fact is that in 2003, before the invasion and 
for years before, they were getting 70 percent of the oil--or 
more.
    And so the notion that from their point of view they will 
be happy with a mere 20 percent, however just that might be, it 
still represents a major cut in income for them.
    Mr. Shays. It is a good segue for me to claim time since 24 
minutes have gone by. I, basically, when I met with Sunni 
representatives, they will say to me, we are willing to 
compromise. We only want 50 percent. And you know, since they 
had 100 percent, seems like a compromise.
    But it is very clear as well that the whole issue of what 
their population is, they would not concede, even if it were 
true it seems to me that they are 20 percent of the population. 
Therefore, getting 20 percent of the oil, it strikes me as a 
challenge for them.
    Ambassador Galbraith, I mean nothing other than the 
observation here, and take it for what it is, I was absolutely 
riveted by the book, Trading Places by Mr. Prestowitz. And it 
was that Japan--we had traded places with Japan, or Japan 
basically had traded places with us, and now they were the 
dominant power, and it would happen in a certain period of 
time. And that book is on a book shelf and he may have written 
another book of why he was wrong, but he was dead wrong.
    And yet I gave that book to everybody I could find. And I 
am frankly riveted as well by your comments. I find them very 
compelling.
    And then, Dr. Fearon, I thought you were like over there in 
terms of your analysis and you are--I just smile thinking about 
it, you enacted a mission in the highest sense and you go where 
those facts take you. And I thought my gosh, we are going to 
fail in Iraq, and we better just kind of give up and walk away 
and so on, but your facts didn't lead you to that, but I made 
that assumption that is where you are going. And you didn't 
volunteer it because we didn't ask you. And I have to tell you, 
this is the most fascinating panel I have had before us in a 
long time, and we have had great panels.
    I want to ask you, Dr. Galbraith, to comment on whether you 
have heard the same concern that Iran is not--I am going to 
give you a few things to answer--is not concerned about even a 
Shia Arab state, as much as we know Iran is concerned about a 
Kurdish state.
    And so that is one of the issues that I would like you to 
address.
    Ambassador Galbraith. I think to be honest, I cannot speak 
to the degree of Iranian concern about the impact of a Iraqi 
specific to your question of a Shiite state in Iraq, that it 
would have on ``Arabstan'' across the--and on their Arab 
population.
    Mr. Shays. Maybe you could expand it to tell me how Turkey 
would react to a Kurdish state and how Syria would react? I 
would be interested to know that.
    Ambassador Galbraith. Yes this is a critical question but--
--
    Mr. Shays. I am going to add one more part to it just so 
you can integrate it--and what the impact is of a Kurdish 
region that is completely land-locked?
    Ambassador Galbraith. Of course, Syria, Turkey and Iran do 
not wish to see an independent Kurdistan, because they all have 
Kurdish populations. Frankly, Syria is not an important--
doesn't have a lot of say on it. Iran is opposed. It has some 
tools--notably sabotage, assassinations, terrorism, exploiting 
divisions among the Iraqi Kurds, but the Iranians, 
interestingly, basically took a decision that what they wanted 
was--what they wanted was the success of the Shiites in the 
south, that they saw in this constitution, which, in my view, 
is a road map for partition, and, so initially they opposed 
some of the autonomy for the Kurds in the constitutional 
negotiations last August.
    And then when it became clear that the Kurds wouldn't agree 
to the constitution, basically they said OK, a de facto 
independent Kurdistan is better, is a price we are prepared to 
pay to have the Shiite dominated rest of Iraq. And I think that 
is still their view. So the critical country is Turkey.
    And frankly, in America, we tend to see Turkey as 
monolithic on this, but it definitely is not. There is, of 
course, a strong body in Turkey that considers an independent 
Kurdistan a great threat, but they don't actually know what to 
do about it.
    There is another body of opinion in Turkey who advances an 
argument that goes basically like this. Yes, we would prefer it 
didn't happen, but we don't have a military option. After all, 
it took us 15 years to defeat the PKK, and that was in Turkey, 
and the most they had was 5,000 guerrillas.
    This would be going into a foreign country with a well 
armed Peshmerger force of 100,000. Further, if we did that, we 
would you know say goodbye to our chances of joining the 
European Union for the rest of this century, and it would cause 
a big rift in the United States. So this recognition actually 
across the board that there isn't a good military option.
    That said, there is a body now that basically argues 
something different which is, who are the Kurds? Well, they are 
white people who are in Turkey, they are secular, they are 
western oriented, they aspire to be democratic, and they are 
not Arabs. In short, Kurdistan is a good buffer as against an 
Iranian dominated Arab Iraq, or pro Iranian Arab Iraq.
    And the reality of Turkish policy toward Kurdistan reflects 
that. The largest investor in Iraqi Kurdistan is Turkey.
    There are increasingly good relations between Kurdistan's 
leaders and Turkish leaders.
    And the Turkish government has been actively promoting oil 
deals that were made by Turkish companies, not with Baghdad, 
but with the Kurdistan regional Government.
    So, Turkey--I don't want to overstate this, but it is a 
more nuanced situation than the conventional view here in 
Washington that, you know, Kurds is just a red flag before the 
Turks. It had a more sophisticated position to their credit.
    Mr. Shays. Can I make an assumption that the Kurds are 
pretty astute negotiators, have become somewhat sophisticated 
in relationships? Can I make an assumption that 12 years of 
dealing with an embargo and secret relations with Turkey have 
helped relationships?
    Ambassador Galbraith. Very much so. And there has also been 
conscious policy, Barham Salih was an architect of it when he 
was the Kurdistan prime minister, of the Sulimaner region 
involving Turkey and I think it has had payoffs.
    Mr. Shays. Dr. Fearon, let me have you react. I am going to 
come back to you on the most successful south African, the 
issue of where you have seen some success.
    But I am going to also ask you to just think about, when we 
became a country, if there had been an academician who had come 
before us and said, you know, this is going to be an absolute 
failure there has never been a democratic state who has rid 
itself of the greatest power in the world, and so on, would 
that have been a deflating message to Americans who were trying 
to be free? And does it prove a point that there may be other 
elements to this picture that are unique and different? And I 
would ask you to tell me if there are some unique and different 
issues. Because it was a miracle in 1776. And when we talk 
about all the things that could go wrong, the list was longer 
than we could list of what could have gone wrong when we became 
a Nation.
    If you could have gotten Virginia and Massachusetts to 
agree on anything, you know, I mean, but you had then, you had 
extraordinary leaders who were able to break through that. You 
know, Washington deciding to go north just as a Virginian to be 
north. But we also had the help of the French, who landed in 
Rhode Island, took troops to New York, and convinced Washington 
not to attack the Brits in New York even though he wanted to 
redeem himself, convinced him to have a month-long March to 
Yorktown, and then we fought in Yorktown and the French lost 
more--had greater deaths than Americans had.
    I just look at this and say, you know, so I am going to ask 
you to tell me, do you see any leaders in Iraq or anyone that 
can break this mold that you see, and so then I can say there 
is hope and promise. And Dr. Ajami, I would like you to comment 
to the things you have heard today.
    Dr. Ajami I am going to go to you and then come back to Dr. 
Fearon. I am giving him a chance to think about that.
    Dr. Ajami. Which part would you like?
    Mr. Shays. Any comments, Ambassador Galbraith said, I found 
as he was saying some points, I saw you nodding your head. And 
then I would just like to know where you might disagree, 
relations with Iran and Turkey and all those things.
    Dr. Ajami. Yes, I would be quite thrilled to see Kurdish 
independence. I think Iraq was a travesty. I think the way the 
Kurds were brought into Iraq in 1920 and beyond, they were 
simply brought in for one reason, to balance the demographic 
power of the Shia. That was it. The Brits were bringing the 
HASHMATs, to look at the country and they said, oh, too many 
Shia. What do we do? Force the Kurds into Iraq. It was a 
debacle. I think the Kurds are a proud and good people. Peter 
is absolutely right. And Congressman Van Hollen, these people 
are--they have endured so much suffering and there remains in 
them such decency.
    The problem in Iraq, I think--and I don't want to pile on 
the Sunni Arabs here. The Sunni Arabs simply were unreconciled 
to this new Iraq. And though they are a minority in Iraq, they 
have a more sectarian mindset, because they look at the region 
and say, oh, we live in a region of Sunni Arabs, the 
neighborhood around us. But actually, if you really think about 
it, and this is one of the great ironies of Iraq, the possible 
borders, the borders which have human habitation for Iraq, not 
across the----
    Mr. Shays. Bring the mic a little closer.
    Dr. Ajami. There is a great irony which I savor about Iraq 
and about its Arab legend, insisting on the very and Arabness 
of Iraq, the Iraq shares possible borders across human 
habitations with Turkey and Iran. Its borders with Saudi 
Arabia, with Jordan with the Arab countries, are very difficult 
to reign.
    So, but nevertheless, the Sunni Arabs insisted this country 
belongs to them. And I just have few sentences, if you would 
permit me, in terms of how the Sunni Arabs view this American 
war. We had whether, we intended it or not, emancipated the 
Shia stepchildren of the Arab world and the Kurds as well. We 
had sinned against the order of the universe. Our innocence was 
astounding.
    We were overturning the order of a millennium, but calling 
on the region to celebrate and to bless our work. This is in 
the written part of my testimony, that in fact, the Sunni 
Arabs, insisted and the region around them, supported that 
whether, it is in Jordan or Saudi Arabia or Egypt or whether it 
is in Sunni Arab communities beyond--they insisted on the right 
of the Sunni Arabs to the bounty of Iraq, and I think that day 
is over.
    That is it.
    Now, Iraq has been, I think, in the last few years, it has 
been blessed with some good leaders. I think they are lucky to 
have Jalal Talibani. And I don't know what Talibani's ultimate 
intentions are. I just think he really would like to hold Iraq 
together.
    And I think there is room for ambiguity. Peter would like 
to clarify things. But I am a child of them where we never name 
things. You know there is a Persian tradition if you allow me 
where, if a dog rubs up against you, and you are on your way to 
prayer, and renders you, if you will, impure and you have to go 
wash again, you look away from the dog and you say, God 
willing, it is a goat and Peter would like to say--Peter 
insists that we call it a dog.
    And of course, everybody knows it is a--you know he wants 
to call it a dog, and the person calling it a goat knows it is 
a dog. And it is so.
    I think if the Kurds could have an independent state in all 
but name, that ambiguity is a saving ambiguity. Now Peter would 
like to tear the veil of ambiguity.
    But Middle Eastern life, that is what you do. You, in fact, 
live with this ambiguity.
    So, you know, I like Sulaimani, I like Kurdistan, I am on 
the board of trustees of an American University which our 
friend Barham Salih is putting up in Sulaimani and Kurdistan. 
Great. Whatever the Kurds can get out of this federalism 
arrangement, I think the more, the better and they deserve it. 
They deserve it. But I am not sure naming the State, the 
government of Kurdistan, is what really serves the interests of 
the Kurds.
    Mr. Shays. I am struck by the fact that the danger of all 
three of you is that you are so darned interesting that I would 
keep you here all day. But we are not going to do that. But I 
do not, Dr. Fearon, I do want you to just kind of help me out a 
little bit. I find your testimony fascinating, and but I want 
to know what I should draw from it in the end, if, in fact, you 
don't think we should be leaving Iraq prematurely and so on.
    And I want you to tell me, again, just to remind you, where 
there has been you know really violent fighting and remarkable 
willingness to come together, where would that be?
    Dr. Fearon. You mentioned the South Africa case. I wrote 
down a list of the cases that I had coded as power sharing 
agreements, successful power sharing agreements, and it is a 
short list and a number of them are kind of dubious, so one 
side really won the war, pretty much all of them occur after 
quite long conflicts.
    South Africa is, in many ways, the most promising, or I 
don't know, optimistic example, and there you had a long, 
costly fight that wore both sides down. You had remarkable 
leadership from--and very not the kind of leadership you could 
just count on appearing somewhere else, in Nelson Mandela, who 
used that leadership in part to put together a very dominant 
ANC which, you know there was some factionalization, but it 
really helped a great deal that he had, that there was this 
dominant organization on the African side.
    And then another thing which was really important and for 
the success in South Africa was, I think, that basically the 
main parties, the white regime and the whites and the Africans 
needed each other economically.
    And that provided a real glue in the end and a reason for 
the outgoing regime to have some trust that they wouldn't just 
be expropriated out of hand.
    But you know leadership was also very important and it is 
important that this took time for the regime to come to the 
belief that it really had to settle.
    Now if you look at Iraq, I am just worried that we just 
don't see those kind of conditions. I am worried that there is, 
you know great factionalization on the Shiite and Sunni sides, 
and that on each of those sides you have parties who I think 
really believe very much that they can take power if the United 
States were gone by using force.
    And the problem is that is a very hard belief to change 
while we are there because their theory is, well, when the 
United States goes we will be able to take over.
    Mr. Shays. I am going to just react to one point and then 
Mr. Van Hollen, I am going to go to you here and this will be 
our last round. We will go one more time here, but if I ask the 
Iraqis, what is their biggest fear, almost to a person they say 
that you will leave, that you will leave us. And some say that 
you will leave us before we can grab hold of democracy. That is 
what they tell me. They may say it differently but that you 
will leave us too soon. And then I think, well, no wonder they 
think that because we have a debate where we are talking about 
leaving now or prematurely or some time, and then some of them 
even make reference, and a lot of them are educated over 
elsewhere, they make the analogy just like you did in Vietnam.
    And you know when I hear people say, Vietnam didn't cause 
what we thought, it still had impact over us over a long period 
of time. Saddam never would have gone into Kuwait if we he 
really believed we would get him out. He just thought that 
because of Vietnam we never would go. In fact, he never thought 
we would get him out and remove him from power in part because 
the French and others convinced him we wouldn't.
    And so what we are trying to deal with is the consequence 
of leaving and when we leave. And so I still want to kind of 
get a sense of that. I am going to ask you, Dr. Fearon, tell me 
in spite of the fact that you say it takes a long time, and 
then I don't hear you say, get out, I don't hear you take the 
position Ambassador Galbraith has basically suggested, that it 
is a fait accompli and let's just acknowledge it and leave. And 
if I am not saying that right, Ambassador I, do want you to 
clarify, that is kind of the message I am hearing.
    So could you comment on that?
    Dr. Fearon. I can try. You know, first of all, it is just 
an extremely, as you know, our discussion has, you know, I 
think, showed, it is an extremely difficult intractable problem 
where I think you are very well aware I think of the enormous 
costs we are paying for being there.
    And I think Congress needs to ask itself is it, and I am 
saying this is an easy question, either, you know, is it worth 
$60 billion a year and a constant stream of loss of American 
lives, to--for a mission that has, I think, you know, quite low 
prospects of leading to the end point that was the point of 
departure or has been the argument that the administration has 
set as the goal?
    You have to ask yourself, are those costs, not to mention a 
whole bunch of other costs----
    Mr. Shays. What is your conclusion? Because I thought 
basically earlier, your conclusion was that for better or 
worse, it is worse--it is better than the alternative so----
    Dr. Fearon. Let me cut to the chase. I think that the costs 
of rapid withdrawal would be too high and we shouldn't do that, 
but that the U.S. Government and the administration and 
Congress need to actively begin and much more creatively, more 
creatively and actively than we have been doing planning for a 
gradual exit, where we kind of go step by step and see how 
circumstances develop, and basically have as our aim well, you 
know, we hope for the best and try to and aim for the best but 
basically accept the possibility that what we will be doing is 
trying to manage a gradual evolution of a Lebanon like conflict 
where we do our best to leave troops in the region and position 
them in as much a way so as to prevent really big and 
threatening al Qaeda bases in western Iraq, and prevent a 
really rapid escalation or genocidal escalation in the cities 
in Iraq.
    Mr. Shays. Let me say this. I want to go to Mr. Van Hollen. 
I am just going to make 1 or 2 points, and then I will have a 
last round which won't be long as to get you to be able to 
answer any other question.
    What I have seen, as I said, the big mistakes, first 12 
months, what I thought was real and noticeable progress for the 
next 18, since January of this year, wrestling with who the 
government would be, 4\1/2\ months of stagnation and therefore, 
I think, going in the opposite direction, and then, 3\1/2\ 
months, where I haven't seen any real heavy lifting on the part 
of the leadership, Sistani even telling the leaders to come 
back home. And so that is what I see.
    And I knew that I would have to come back home and report 
that because that is the one promise I have made, whenever I 
go, I come back and I say the truth and let the truth take me 
where it takes me, no matter the consequences.
    And when I was there in July, the new government had been 
had been in power for now 6 weeks, and I didn't see them doing 
anything. I saw them talking. And I knew I was going to have to 
come back in not my usual 3\1/2\ months or 3 months.
    When I came back, I just saw a continuation. So I came to 
the conclusion that we needed to light a fire under the Iraqi 
politicians. My way of doing it was to say, we know there is a 
certain point where when the Iraqis step up, we can step down.
    We should be able to know that.
    Now the president said that we have enough troops but now 
we have 264,000--294,000 Iraqi security and they haven't 
resulted in any stepdown.
    So whenever we get to that point where we have enough, 
because when you combine the 264, I think we are up to then, 
and the American 150,000 plus the 20,000 contractors, we are up 
to about 494,000 security.
    The administration, it seems to me, has to tell us when we 
are at that point that in a worst-case scenario, the Iraqis we 
can deal with, with the challenge of they will still be 
fighting but we can respond to it, and that we then tell the 
Iraqis that we are going to, when we reach that number, every 
Iraqi who has had a year's worth of training on the line, on 
the firing line, we bring down an American troop.
    And my point and my logic is to say, we need to let them 
know there is a point where they are going to have to take 
over. And we don't want to leave a day before they are capable, 
but we don't want to leave, stay a day later than we have to. 
That still, I have to say, suggests to me, Mr. Galbraith, that 
it is not going to be troops in Kurdistan--I mean, you didn't 
say Kurdistan, you said, you were going to locate the troops 
where?
    Ambassador Galbraith. In Kurdistan, as an over-the-horizon 
force that could move back into the Sunni Arab areas.
    Mr. Shays. And I was going to ask you why not Kuwait? But I 
am struck by the fact that we need troops there, however small, 
they need to be an operational troop for us. We also will have 
to provide air, fixed and helicopter support, medics and so on. 
That is kind of how I am wrestling with this issue. And it is 
because I do think there has to be this point.
    And the interesting thing--and I am sorry to go on--but the 
interesting thing is by my suggesting it, it somehow wrapped me 
in with the group that wants to leave now or arbitrarily, and I 
don't want to do that. And it is almost like we don't have any 
room to have a discussion between those who want, you know, to 
leave right now or arbitrarily, and those who say stay the 
course and just keep plugging away. It seems to me there has to 
be something else.
    And my last point is, I realize that I am preaching to 
Sunni, Shias and Kurds why can't they work together, but Mr. 
Van Hollen and I and everyone else aren't working together--I 
don't mean that as a criticism to him or me, but bottom line 
with this election it is just not happening. It will have to 
wait until after the election. But there is going to have to be 
a point where Republicans and Democrats can say is there a way 
we, in this country, can find the common ground and give a 
common message to the Iraqis so they know what they are in for, 
whatever that is?
    That is kind of the wrestling I have been doing now after 
14 trips and the 3 days of hearings that I have heard. And what 
I will want you to just respond to, and I won't take 10, even 
10 minutes my next round, I am going to want you to tell me, 
with the reconciliation, shall I know it is a package, but is 
there any one that is a key, with oil, debaathification, 
federalism, militia, amnesty whatever, that is what I will want 
in my next round and last round. And it will be short. You have 
the floor.
    Mr. Van Hollen. Well, thank you, Mr. Chairman. This has 
been a terrific hearing, and again, thank all the witnesses 
here. And I would just note that Mr. Talabani, in his sort of 
final statement that he made, went back, took us back to the 
creation of Iraq and the fact that the Kurds were put into 
Iraq, and he said we now have to correct the historic mistake. 
Those were his words.
    Now how we do that is, of course, central question here, 
Mr. Talabani wasn't proposing any kind of partition. But he was 
suggesting that as part of national reconciliation, we have to, 
whatever we do, it has to somehow reflect the will of all the 
different groups within Iraq and trying to decipher what the 
will of those different groups in Iraq is, is obviously a 
difficult task.
    Now, I would agree that from a U.S. perspective, the idea 
of having a United democratic state of Iraq is probably in the 
United States best interests. But as we have learned, the 
question is not only what we want, because we have learned I 
think very clearly over the last many years in Iraq, we cannot 
impose our will on Iraq.
    And the question is, what is going to be the task for the 
Iraqi people in the days ahead? What are they going to decide 
and what will our role be while they make those decisions and 
how long are we going to stay in Iraq while they make those 
decisions?
    Now, Dr. Fearon, I happen to agree with you and maybe 
others on the panel that an immediate withdrawal of U.S. forces 
in Iraq would lead to a greater blood bath, even greater civil 
war, than we see today and I have opposed that kind of 
immediate withdrawal.
    At the same time, we do, I think, need to lay out a plan 
for the American people that shows them how this is going to 
come to an end. It is messy, Dr. Ajami, you are absolutely 
right. It is a very messy situation. And it may not be easy to 
come up with a neat solution. But we have to come up with, 
there has to be some evolution of this that allows us to have a 
plan for ultimate U.S. withdrawal, sooner rather than later.
    And I think what, and Mr. Galbraith, as, I understand what 
the Ambassador said, and I think he wants to make this clear, 
is he is not proposing partition. It is his analysis that we 
have sort of already gotten there, that is the reality on the 
ground, and that the question is, rather, how much more time 
are we going to keep U.S. forces there in the middle of a civil 
war where the parties have agreed, at least among themselves to 
sort of decide if Iraq is going to break up.
    So these are all difficult questions, Dr. Fearon, and I 
guess my question to you and the others on the panel is, you 
say we shouldn't push the Iraqis toward partition. I agree. I 
think we all agree. No one should be pushing them toward 
partition.
    At what point do we make a decision? What are the sort of 
the political milestones we need to look at to determine when 
the United States needs to begin seriously withdrawing its 
troops? Because as you have said, laid out here, we should sort 
of be there to prevent the blood bath as developments progress.
    But we need to have some milestones. We need to say, if 
this doesn't happen by this date, we need to make a 
determination that maybe the Iraqis have decided for themselves 
that Iraq shouldn't be all together. Ambassador Galbraith 
already reached that conclusion. He has a lot of great facts to 
support that. And let me end with this because then the 
question for you, Ambassador Galbraith, is if that is the fact, 
would not the immediate withdrawal of U.S. forces out of areas 
like Baghdad for example into Kurdistan, would that not need 
lead you to believe to an increase in the blood bath in the 
Baghdad area and other areas? So I throw that out to everybody.
    I will begin where I ended, with Ambassador Galbraith.
    Ambassador Galbraith. Well, perhaps to speak a bit more 
broadly if I may both to what you said and to what the chairman 
said, because it really is of a peace. I have known the Iraqi 
opposition, obviously the Kurds best but secular Arabs, secular 
Shiites, religious Shiites for a very long time as Congressman 
Van Hollen knows from our time together 20 years ago on the 
Foreign Relations Committee. And these are the people who are 
saying that we should stay. They are my friends. And so it is 
somewhat painful for me to come to a different conclusion.
    But I think that we have to focus on two things: First on 
the interests of the United States, and second, on what is 
achievable?
    The interests of the United States, it seems to me--and 
actually President Bush partially defined this when he said 
keeping of weapons of mass destruction out of the hands of the 
most dangerous states. I would refine that. It is nuclear 
weapons, because the others are not in the same category.
    And while we have been tied up in Iraq, North Korea has 
become the only country to withdraw from the Nuclear 
Nonproliferation Treaty, it is clearly reprocessed plutonium 
into nuclear weapons, and we have talked tough and done 
nothing. Iran had suspended its uranium enrichment. It has gone 
away from that. It has reserved its uranium enrichment. And 
again we have tough rhetoric but we don't actually have a 
military option.
    And Iran is a particular problem. First, it is the fact 
that our Army is tied up in Iraq, our military; but second that 
as long as we are in the south of Iraq, and I mean not just us 
but the British, our coalition partners, should we take any 
military action against Iran, the Iranians can retaliate, and 
they have allies who will retaliate against us, and whether 
Fouad and I agree about just how theocratic it is, I think he 
would agree there are plenty of forces in the south who would 
respond to an American attack on Iran by attacking the United 
States and there would be Iranian forces in there as well.
    So I am not in favor of military action on Iran, but I do 
believe it is tough to negotiate when you don't have a military 
option and the Iranians know we don't.
    So plus--basically, my argument for getting out quickly is 
based on our other foreign policy priorities, that is the first 
point.
    The second point is that I don't believe we are 
accomplishing anything in the south. I won't elaborate and I 
don't believe we are actually preventing any blood bath in 
Baghdad. I don't think it will be any worse or significantly 
worse if we withdraw. I don't actually think we are doing any 
good because we are not doing the kind of activities that would 
really stop a blood bath. So if we are not accomplishing 
anything, and if it is diverting resources from the real 
threats to our national security then the answer is, yes, I am 
in favor of very rapid withdraw from those parts of Iraq.
    I would focus again on the remaining threat, al Qaeda. And 
the reason I say Mr. Chairman, Kurdistan as opposed to Kuwait--
well, there are several reasons. First, if Kurdistan is 
adjacent to the Sunni areas whereas Kuwait is not, second it is 
still inside Iraq and I think you can imagine if we pulled 
completely out of Iraq, the political problems in this country, 
as well as in Iraq, should we intervene, third the Kuwaitis, 
there is a lot of anti-Americanism there, whereas the Kurds are 
basically very pro American.
    So those are the arguments for the over-the-horizon force 
in Kurdistan.
    The final point I would make has to do with the math of the 
security forces, because I think this is so critical. We talk 
about 294,000 security forces. But let's go. It is 115,000 in 
the Army. According to the top Iraqi defense ministers, I have 
spent a lot of time talking to them, 10 percent of those will 
show up in combat. So it is not 115,000, it is 12,000. And of 
the Iraqi police, the 180,000, well, many of them, of course, 
are, we exclude Kurdistan, they have their own police force. 
But many of them are, of course, are Sunnis in Sunni areas, 
Shiite in Shiite areas, but where they are in mixed areas--and 
those areas are reasonably stable, or at least the Shiite areas 
are, the Sunni areas are a separate problem, the Shiite areas 
are stable. But where they are in the mixed areas, the police 
are not the answer. They are the problem. They are the 
partisans in the civil war. The army is a bit too.
    So, it is not an answer to civil war to say if Iraqis stand 
up we will stand down. As Iraqis stand up, the civil war gets 
worse. I will leave it at that.
    Mr. Van Hollen. Dr. Fearon.
    Dr. Fearon. Let me address briefly your question about 
political milestones, and at the same time, Congressman Shays's 
comments about looking for a course between rapid withdrawal 
and, you know, staying forever. I think that we, the historical 
experience suggests and a lot of realities on the ground 
suggests that it is extremely unlikely that we are going to 
reach a point with training and helping the government in the 
various ways we are trying to where drawing down troops doesn't 
pose a very significant risk of the conflict increasing 
significantly.
    So I think what that means we just have to face up to the 
fact that if we are not willing to kind of stay for a decade or 
decades, kind of back stopping a decent Iraqi government or a 
government that has people trying to make for a decent 
government, then we simply have to take a graduated approach 
where we are, we tell them I don't know how you do this 
diplomatically, it is going to be private, I would hope that we 
are going to draw down in steps, and we will take a step--and 
we have to just expect that there is a high likelihood that 
things could then get worse. I think the, at least temporarily, 
I think we want to move in steps or gradually and see how 
things evolve.
    It is an extremely complicated situation with lots of 
players, lots of interests involved. We will not be just 
disappearing. We are still going to be an incredibly important 
player there with a lot of means of leverage, economic, 
military, diplomatic.
    One of the advantages, Mr. Chairman, you were talking about 
the government not really moving fast, it is possible that 
taking these kind of steps would help to bring a greater sense 
of urgency. It could also cause things to get worse. It is hard 
to say. But it could, you know, it could very well light a fire 
under the politicians as it were, and make them make some 
hopefully not a last ditch, but maybe last ditch efforts to 
make the current situation work.
    I think we ought to get more economic resources flowing 
where we ought to get economic resources flowing, because I 
think in the longer run, or the medium run, for us to continue 
to play a, you know, a constructive role we are going to be 
wanting to say, we want you guys to come to an agreement, and 
we are going to support the people who we think are working in 
a positive way for that and punish or not help the people who 
aren't.
    And I think we will find people of those predilections on 
all sides of the conflict and it is going to be a very 
complicated situation.
    Dr. Ajami. Mr. Chairman, first a personal note, and then a 
policy conclusion. The personal note, I think some members of 
my family are among your constituents, I believe, if I am not, 
you can correct me, that, Norwalk and Groton are your 
constituency, and two of them are twins who went into West 
Point and into the military and one of them is on his way to 
Kuwait and most likely Iraq.
    Both of them, one of them is in Korea, and one of them is 
on his way to, we believe, Iraq, trust me, they will be casting 
absentee ballots for Congressman Shays. So at least that front 
is secure.
    Now on the balance, the good news, if you will from Iraq, 
something has happened in Iraq. And it will give us our 
deliverance in the medium run, a balance of terror has been 
arrived at in Iraq. A lot of this war in Iraq was motivated and 
triggered by the Sunni Arab belief that they are a martial 
race, and that Shia are not. They even had an expression. They 
would say for us, ``hukm'' which means ruling for you, self 
flagellation. They had disdain for them. And now the Mahdi army 
and the Badr brigade, the Sunnis are looking into the abyss. 
And they now understand if war were to come, if they persist, 
they may not win.
    This is the first time in the history of Iraq that this 
conclusion has been arrived at by the Sunni Arabs, that two can 
kill, and that actually there is a rough balance of terror in 
the country, that they can't go north because they will meet 
the Peshmergas and they can't come south because eventually 
they will want to fight it out with Muktada al Sadr and the 
Badr brigade maybe the outcome is not so good.
    So we are on the road to deliverance. It has never been--it 
is a scourge to our souls, and I know, for you, Mr. Chairman 
and I know Congressman Van Hollen, this has been a very, very 
serious engagement because you both have much invested in this 
question and it is really a great honor to be here with you.
    Thank you.
    Mr. Shays. I think we're done. So, by this, if there is any 
comments that you want to make, Ambassador, Dr. Fearon, since I 
so appreciated Dr. Ajami's last comments, I don't want him to 
make any more.
    But, no, is there anything we should have brought up in 
this hearing that we didn't bring up, any dialog that we should 
have had?
    Ambassador Galbraith. I have one final substantive comment 
which is simply I'm afraid that lighting a fire under the Iraqi 
politicians isn't going to work because they can't actually do 
anything. They don't govern anything. They are good people, but 
even if they could agree, and quite often they do agree, it 
doesn't actually translate beyond the Green Zone; it doesn't 
translate into action.
    The second point I would say, Mr. Chairman, is that you 
referred to passing out to everybody the book Trading Places, 
and then, of course, it all turning out wrong. I think I would 
be remiss if I didn't tell that you my publisher would be quite 
happy if you passed out this book, even if I turned out to be 
wrong.
    Mr. Shays. You know what, I would like you both to tell us 
your book and just hold it up a second so I can see it again. 
This book is The End of Iraq, and when did it come out?
    Ambassador Galbraith. It came out in July of this year.
    Mr. Shays. And your book?
    Dr. Ajami. It's called The Foreigner's Gift. By the way, a 
wisecrack said the two should have one title, The Foreigner's 
Gift, subtitled The End of Iraq. It came out by the same 
publisher, we have the same publisher, the same month. So we 
have had this friendly rivalry. I wish Peter well as his is a 
great read. I have actually with your permission, I have 
inscribed this book for you. I think it's actually under the 
Federal guidelines of accepting--it is not $25.
    Mr. Shays. If it was worth more than I'm allowed, I would 
actually buy it from you.
    Dr. Ajami. It is inscribed. It's here for you.
    Mr. Shays. Dr. Fearon.
    Dr. Fearon. On the books, I would have had more intelligent 
things to say in the dialog with these guys but both were sold 
out at the Stanford book store last week.
    I just want to thank the committee very much for inviting 
me to talk, and it's been absolutely fascinating and I 
appreciate your questions and I deeply appreciate your intense 
involvement and interest in this.
    I guess the closing comments I want to make is that I'm 
worried that it's not just kind of a stasis or worries--nothing 
is happening, say, in the Iraqi Parliament or among Iraqi 
leaders. In the last some months I have been worried there's a 
certain stasis on Iraq on the U.S. Government side, the 
administration side in particular. It seems like it is a very, 
very difficult situation and we need some creative thinking and 
some initiatives. I don't know how much this has to do with the 
outcome of the election, but it would be a shame if that were 
the case, because we need to be thinking about and planning for 
multiple possible outcomes and not just the kind of most 
optimistic scenario in the coming months.
    Mr. Shays. I'll just make this last point in doing 
something I don't always do enough of, and that's to thank my 
committee. When I told them about a month ago we were going to 
have a set of three hearings in 1 week just shortly after 
having a hearing next week, they looked at me, and I said this 
is really important, and they knew it was. I want to thank Dr. 
Nicholas Palarino, my staff director. He has been to Iraq 14 
times, 13 with me and once on his own. My wife doesn't like me 
going if he's not with me. He was a former colonel and has 
earned his doctorate.
    I want to point out the gentleman sitting next to me, Mr. 
Robert Kelley, the chief counsel, has been in Iraq for 20 
months. He did something so unusual working for the State 
Department, he would help us in our travels but he would tell 
me candidly, kind of, when I was getting the straight story and 
when I wasn't. He would once in a while say, you may need to 
ask this question to draw out the answers that you need as a 
Member of Congress. He's done a fabulous job in putting 
together this.
    And Mr. Robert Briggs, analyst of the subcommittee, and Mr. 
Michael Girbov, a Georgetown University graduate student, and 
Mr. Kaleb Redden, the Presidential management fellow. A lot of 
work has gone into these hearings and I'm very grateful to my 
committee. And I'll just again say I just can't thank you 
enough for the dialog and the challenging information you 
presented us with that we need to wrestle with. I'm just so 
grateful.
    Mr. Van Hollen, any last comment that you'd like to make 
before we go?
    Mr. Van Hollen. Just to thank you, Mr. Chairman, for 
holding these hearings and to thank the last panel for their 
very insightful comments.
    Mr. Shays. Thank you very much. This hearing is adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
